No. _________________________

IN THE SUPREME COURT OF THE UNITED STATES
ELIZABETH C.,
Petitioner
v.
LOS ANGELES COUNTY DEPARTMENT OF CHILDREN AND
FAMILY SERVICES,
Respondent
__________________________________________________________
PETITION FOR WRIT OF CERTIORARI TO
THE CALIFORNIA COURT OF APPEAL
SECOND APPELLATE DISTRICT
___________________________________________________________

RONALD D. TYM
The Tym Firm
30526 Rainbow View Dr.
Agoura Hills, CA 91301
Telephone: (818) 836-1428
Fax: (818) 337-2026
Email: RTym@Tymfirm.com
Attorney of Record for Petitioner
Elizabeth C

QUESTIONS PRESENTED FOR REVIEW
1.

Whether the Fourteenth Amendment due process

requirement articulated in Santosky v Kramer, 455 U.S. 745 (1982)
that parental rights only be terminated upon clear and convincing
evidence of parental unfitness requires that such a finding be made
close in time to the termination of parental rights by the state or may
be based upon a finding of parental unfitness by clear and convincing
evidence made years earlier when the child was initially placed into
the custody of the state.
2.

Whether any constitutional due process deficiency in a

procedure where parental rights are terminated based upon a finding
of parental unfitness by clear and convincing evidence made years
earlier is cured if the state also finds parental unfitness by a
preponderance of the evidence closer in time to the termination of
parental rights.

i

LIST OF PARTIES TO THE PROCEEDING
Petitioner, Elizabeth C.
Child, Alexander C.
Respondent, Los Angeles County Department of Children and Family
Services
CORPORATE DISCLOSURE STATEMENT
None of the parties to the proceeding are a nongovernmental
corporation and therefore no corporate disclosure statement is required
by Rule 29.6.
LIST OF ALL PROCEEDINGS IN STATE AND FEDERAL
TRIAL AND APPELLATE COURTS
1. In the Matter of Alexander C, No. 18CCJP00695A, Los Angeles
Superior Court. Orders issued on April 12, 2018 (See Appendix
A hereto), June 5, 2019 (See, Appendix B hereto), and January
13, 2020 (See, Appendix C hereto)
2. In the Matter of Alexander C: Elizabeth C. fka Elizabeth Z,
Appellant, vs. Los Angeles County Department of Children and
Family Services, Respondent, No. B304128, California Court of
Appeal, Second Judicial District. Opinion issued on October 13,
2020. (See, Appendix D hereto.)
3. In re Alexander C: Los Angeles County Department of Children
and Family Services, Respondent, v. Elizabeth C, Appellant, No.
S265630, California Supreme Court. Denial of Petition for
Review issued on January 20, 2021. (See, Appendix E hereto)

ii

TABLE OF CONTENTS
QUESTIONS PRESENTED FOR REVIEW .................................................. i
LIST OF PARTIES TO THE PROCEEDING .............................................. ii
CORPORATE DISCLOSURE STATEMENT............................................... ii
LIST OF ALL PROCEEDINGS IN STATE AND FEDERAL TRIAL
AND APPELLATE COURTS ............................................................... ii
TABLE OF CONTENTS .................................................................................. iii
TABLE OF AUTHORITIES ............................................................................ iv
CITATIONS OF OPINIONS AND ORDERS ................................................1
JURISDICTION ...................................................................................................2
CONSTITUTIONAL PROVISIONS AND STATUTES INVOLVED .......2
STATEMENT OF THE CASE ..........................................................................2
REASONS FOR GRANTING THE PETITION ............................................4
CONCLUSION ...................................................................................................12
APPENDIX A....... 4/12/18 ORDER OF LOS ANGELES SUPERIOR COURT
APPENDIX B............ 6/5/19 ORDER OF LOS ANGELES SUERIOR COURT
APPENDIX C........1/13/20 ORDER OF THE LOS ANGELES SUPERIOR CT
APPENDIX D ....... 10/13/2020 OPINION OF CALIFORNIA CT OF APPEAL
APPENDIX E...... 1/20/21 DENIAL OF REVIEW BY CA SUPREME COURT
APPENDIX F ............................................. APPLICABLE STATE STATUTES

iii

TABLE OF AUTHORITIES
Cases
A.B. v. A.C., 45 Cal.4th 1110, 1117 (Ct. App. 2009) ............................. 10
Alma S. v Dept of Child Safety, 425 P.3d 1089, 1093 (Az
2018)...................................................................................................... 8
Cynthia D v Superior Court 5 Cal.4th 242 (Cal. 1993) ...................... 3, 5
In re D.C., 71 A.3d 1191, 1198 (Vt. 2012) ............................................... 8
In re D.T, 818 N.E.2d 1214 (Ill 2004) ...................................................... 8
In re H.J.P., 789 P.2d 96 (Wash. 1990) ................................................... 8
In re Janee J 74 Cal.App.4th 198, 214 (Ct. App. 1999) ......................... 9
In re Kyle S., 692 A.2d 329, 332 (R.I. 1997) ............................................ 8
Mathews v. Eldridge, 424 U.S. 319 (1976) .............................................. 6
People in Int. of A.M.D. 648 P.2d 625 (Colo. 1982)................................. 8
Santosky v Kramer, 455 U.S. 745 (1982) ......................................... i, 3, 5
Statutes
28 U.S.C. §1257(a).................................................................................... 2
Cal. Welf & Inst. Code §361..................................................................... 8
Cal. Welf & Inst. Code §366.25............................................................ 4, 7
Cal. Welf & Inst. Code §366.26................................................................ 5
Constituional Authorities
U.S. Const., Amendment 14 ................................................................ 2, 3
Rules
Rule 13.1 ................................................................................................... 2
Rule 29.2 ................................................................................................... 2
Rule 29.6 ................................................................................................... ii
Rule 33.2 ................................................................................................... 2
Treatises

iv

California Dept. of Finance, Population Estimates and
Projections (May 2020); “Child Population, by Age
Group and Gender”, Lucille Packard Foundation for
Children’s Health. ................................................................................ 4
Christopher Wildeman, Frank R. Edwards, and Sara
Wakefield, “The Cumulative Prevalence of Termination
of Parental Rights for U.S. Children, 2000-2016”, Child
Maltreatment (February 1, 2020) Volume 25, Issue 1,
pages 32-42. .......................................................................................... 4

v

No. _________________________
IN THE SUPREME COURT OF THE UNITED STATES
ELIZABETH C.,
Petitioner
v.
LOS ANGELES COUNTY DEPARTMENT OF CHILDREN AND FAMILY
SERVICES,
Respondent,
__________________________________________________________
PETITION FOR WRIT OF CERTIORARI TO
THE CALIFORNIA COURT OF APPEAL
SECOND APPELLATE DISTRICT
___________________________________________________________
Petitioner ELIZABETH C. respectfully asks that a writ of certiorari issue
to review the final opinion of the California Court of Appeal, Second Appellate
District, in this matter.
CITATIONS OF OPINIONS AND ORDERS
The unpublished order of the trial court issued on April 12, 2018 finding
parental unfitness by clear and convincing evidence and removing child from
the home is attached as Appendix A.
The unpublished order of the trial court issued on June 5, 2019 finding
parental unfitness by a preponderance of the evidence and scheduling a hearing
on termination of parental rights is attached as Appendix B
The unpublished order of the trial court terminating parental rights
issued on January 13, 2020 is attached as Appendix C.
The unpublished opinion of the California Court of Appeal issued on

1

October 13, 2020 is attached as Appendix D.
The unpublished California Supreme Court’s one-page order denying
review is attached as Appendix E.
JURISDICTION
The jurisdiction of this Court is invoked under 28 U.S.C. §1257(a). The
decision of the California Court of Appeal for which petitioner seeks review was
issued on October 13, 2020. The California Supreme Court order denying
petitioner’s timely petition for discretionary review was filed on January 20,
2021. This petition is filed within 150 days of the California Supreme Court’s
denial of discretionary review, under Rule 13.1 (as modified by U.S. Supreme
Court Order issued March 9, 2020), Rule 29.2, and Rule 33.2 (as modified by
U.S. Supreme Court Order issued on April 15, 2020).
CONSTITUTIONAL PROVISIONS AND STATUTES INVOLVED
U.S. Const., Amendment 14 provides, in relevant part:
“No state…shall deprive any person of life, liberty or property, without
due process of law….”
The California statutory provisions that are relevant to this petition (Cal.
Welf & Inst. Code §§361, 366.25, and 366.26) are reprinted in Appendix F.
STATEMENT OF THE CASE
On April 12, 2018, the Superior Court of the State of California in and for the
County of Los Angeles (the “Superior Court”) declared petitioner’s infant child a
dependent of the court and removed the infant from petitioner’s custody based upon
a finding by clear and convincing evidence that “there is a substantial danger to the
physical health, safety, protection or physical or emotional well-being…of the child”
arising from petitioner’s untreated bi-polar medical condition. App. A at 1-2.

2

On June 5, 2019, the Superior Court found “by a preponderance of the
evidence that return of the child to the physical custody of the parent(s)/legal
guardian(s) would create a substantial risk of detriment to the child” and
terminated reunification services for petitioner based upon the Superior Court’s
determination that petitioner had partially complied with the reunification plan.
App. B at 2. The Superior Court scheduled a hearing for termination of petitioner’s
parental rights (a “26 Permanency Planning Hearing”). App. B at 2
On January 13, 2020, petitioner’s parental rights with respect to her then
toddler child were terminated by the trial court. App C at 2. No finding of parental
unfitness was made by the Superior Court at the time of termination of parental
rights. App. C.
In the state Court of Appeal, petitioner argued that such termination of
parental rights violated the federal constitutional right of petitioner to due process
because such termination occurred without a finding of parental unfitness by clear
and convincing evidence as required by the due process provisions of the U.S.
Const., Amendment 14 and Santosky vKramer, 455 U.S. 745 (1982). Appellant’s
Opening Brief, pages 22-37.
On October 13, 2020, the California Court of Appeal rejected petitioner’s
argument on the merits and affirmed the termination of parental rights, relying
upon a California Supreme Court case (Cynthia D v Superior Court 5 Cal.4th 242
(Cal. 1993) (“Cynthia D”)) that determined that Santosky’s requirement that a
termination of parental rights by a state could only occur upon clear and convincing
evidence of parental unfitness did not apply to the State of California. App D at 1420.
Petitioner sought discretionary review of the issue in the California Supreme
Court, making the same federal constitutional argument and citing the same basic
authorities as were made to the Court of Appeal. Petition for Review pages 7-20.

3

The California Supreme Court summarily denied review. App. E.
REASONS FOR GRANTING THE PETITION
1 in 100 U.S. children will experience the termination of parental rights by
age 18. This represents a roughly doubling of the risk since 2000. 1
In California, the number of children under the age of 18 is 9,026,052. 2
Therefore, approximately 90,260 of these children in California will experience
termination of parental rights by age 18 and be permanently separated from their
parents. 3
Children in California are 3 times more likely to experience a termination of
parental rights than children in states with the lowest rates of termination of
parental rights. 4
These statistics are not surprising because of the following fact: California
is the only state in the country to allow the termination of parental rights
without parental unfitness or abandonment being proven by clear and
convincing evidence at, or close in time prior to, the termination
proceedings.
California only requires that parental unfitness be shown by a preponderance
of the evidence in order for the child to not be returned to the parent, reunification
services terminated, and a termination of parental rights proceeding scheduled.
Cal. Welf & Inst. Code §366.25(a)(1), (3)
Once a termination of parental rights proceeding is scheduled, the
termination of parental rights is virtually automatic.
1 Christopher Wildeman, Frank R. Edwards, and Sara Wakefield, “The Cumulative Prevalence of
Termination of Parental Rights for U.S. Children, 2000-2016”, Child Maltreatment (February 1,
2020) Volume 25, Issue 1, pages 32-42.
2 California Dept. of Finance, Population Estimates and Projections (May 2020); “Child Population,
by Age Group and Gender”, Lucille Packard Foundation for Children’s Health.
3

One percent of 9,026,052

Christopher Wildeman, Frank R. Edwards, and Sara Wakefield, “The Cumulative Prevalence of
Termination of Parental Rights for U.S. Children, 2000-2016” Child Maltreatment (February 1,
2020) Volume 25, Issue 1, pages 33-42
4

4

In California, “in order to terminate parental rights, the court need only
make two findings: (1) that there is clear and convincing evidence that the minor
will be adopted; and (2) that there has been a previous determination that
reunification services shall be terminated.” Cynthia D v Superior Court, 5 Cal.4th
242, 249-250 (Cal. 1993) (“Cynthia D”); Cal. Welf & Inst. Code §366.26(c)(1).
As pointed out by Justice Kennard in the dissenting opinion in Cynthia D:
“[S]o long as the minor child is likely to be adopted, the
actual court order terminating parental rights is
essentially‘automatic’ at the later [termination]
hearing….[T]he ‘critical decision regarding parental
rights’ under the child dependency scheme is not made
when the juvenile court actually terminates parental
rights at the [termination] hearing, but earlier at the 12or18-month status review hearing when the court decides
[by a preponderance of the evidence] that ‘the minor child
cannot be returned home and that reunification efforts
should not be pursued.” Cynthia D. 5 Cal.4th at 259.
The reason why every other state requires that parental unfitness be proven
by clear and convincing evidence at or immediately prior to termination of parental
rights is because that is what this Court determined that due process requires in
Santosky v Kramer, 455 U.S. 745 (1982) (“Santosky”).
In Santosky, this Court established that a natural parent’s custodial rights
with respect to his/her child involves a fundamental liberty interest. The Court
stated:
“The fundamental liberty interest of natural parents in
the care, custody, and management of their child does not
evaporate simply because they have not been model
parents or have lost temporary custody of their child to
the State. Even when blood relationships are strained,
parents retain a vital interest in preventing the
irretrievable destruction of their family life. If anything,
persons faced with forced dissolution of their parental
rights have a more critical need for procedural protections
than do those resisting state intervention into ongoing
family affairs. When the State moves to destroy weakened
family bonds, it must provide the parents with

5

fundamentally fair procedures.” 455 U.S. at 753-754
In Santosky, in determining what due process required in the context of a
termination of parental rights proceeding, this Court balanced the following three
distinct factors specified in Mathews v. Eldridge, 424 U.S. 319 (1976): (1) the nature
of the private interests affected by the proceeding; (2)the risk of an erroneous
deprivation of the private interests as a result of the state’s chosen procedure; and
(3) the countervailing governmental interests supporting the use of the challenged
procedure. 455 U.S. at 758-768
In applying these factors to a termination of parental rights proceeding, this
Court concluded:
“In parental rights termination proceedings, the private
interest affected is commanding; the risk of error from
using a preponderance standard is substantial; and the
countervailing governmental interest favoring that
standard is relatively slight.
Evaluation of the three Eldridge factors compels the
conclusion that use of a ‘fair preponderance of the
evidence’ standard in such proceedings is inconsistent
with due process.” Santosky, 455 U.S. at 758
This Court pointed out that Congress found a “beyond reasonable doubt”
standard proper in one type of parental rights termination case, and that most
states had adopted a “clear and convincing evidence” standard of proof. The Court
left it to state legislatures and state courts whether to apply a “beyond a reasonable
doubt” standard of proof or a “clear and convincing evidence” standard of proof to
the factual findings necessary for the termination of parental rights. But the Court
made clear that application of a “preponderance of the evidence” standard of proof
was constitutionally impermissible. Santosky, 455 U.S. 769-770.
However, the State of California has chosen to thumb its nose at this due
process requirement articulated in Santosky and has maintained a statutory
scheme that permits the termination of parental rights based upon a finding of
parental unfitness by only a preponderance of the evidence. Cal. Welf & Inst. Code

6

§366.25(a)(1), (3)
In Cynthia D, the California Supreme Court was requested to apply Santosky
so as to require that the standard of proof for findings that “the return of the child
would create a substantial risk of detriment to the physical or emotional well-being
of the minor” made at a hearing immediately prior to a termination of parental
rights be by “clear and convincing evidence” rather than the standard of proof of
“preponderance of the evidence.”
The California Supreme Court declined to do so, finding that Santosky did
not require such a result.
In Cynthia D, the California Supreme Court independently analyzed
California’s statutory scheme for termination of parental rights using the three
factor test of Mathews v Eldridge rather than rely on this Court’s balancing of the
three factors, and found that because California’s statutory system provides an
attorney for parents and involves numerous findings of detriment to the child by a
preponderance of the evidence before the termination of parental rights proceeding
occurs there are sufficient protections for the parent so as to obviate the need for a
finding of unfitness by clear and convincing evidence at or close in time prior to the
termination proceedings. Cynthia D., 5 Cal.4th at 254-255.
However, the U.S. Supreme Court expressly rejected this type of analysis in
Santosky by stating:
“[W]e would rewrite our precedents were we to excuse a
constitutionally defective standard of proof based on an
amorphous assessment of the ‘cumulative effect’ of state
procedures…The statutory provision of right to counsel
and multiple hearings before termination cannot suffice to
protect a natural parent’s fundamental liberty interests if
the State is willing to tolerate undue uncertainty in the
determination of the dispositive facts” Stantosky, 455 U.S.
at 758, fn 9.
The determination by the California Supreme Court that the State of

7

California does not need to comply with the due process requirements for
termination of parental rights articulated in Santosky has caused California to be
the only state in the country to not require a finding of parental unfitness by clear
and convincing evidence at or close in time to the termination of parental rights
hearing.
All other state supreme courts that have considered the issue since Santosky
have consistently found that before there can be termination of parental rights,
parental unfitness (however defined by the state’s statute) must be proven by the
state by clear and convincing evidence at or near in time prior tothe termination
proceedings. See, e.g., In re D.T, 818 N.E.2d 1214 (Ill 2004); In re D.C., 71 A.3d
1191, 1198 (Vt. 2012); In re H.J.P., 789 P.2d 96 (Wash. 1990); Alma S. v Dept of
Child Safety, 425 P.3d 1089, 1093 (Az 2018)[ “In Kent K. , we implicitly equated the
substantive grounds for termination listed in § 8-533(B) with parental
unfitness…We now explicitly reiterate that conclusion, which ensures compliance
with the due process requirement that a court find, by clear and convincing
evidence, parental unfitness when a severance is contested... If a statutory ground
were not synonymouswith unfitness, a contested severance based on such ground
would be constitutionally infirm.”]; In re Kyle S., 692 A.2d 329, 332 (R.I. 1997)[“
Before parental rights may be terminated by the state pursuant to § 15-7-7,
however, the trial justice must be convinced by clear and convincing evidence that a
parent is either unfit or incapable of providing a child with the proper care.”]; People
in Int. of A.M.D. 648 P.2d 625 (Colo. 1982).
Although California does require a finding of parental unfitness by clear and
convincing evidence at the time of the original adjudication of dependency when the
child is first taken into the care and custody of the state (Cal. Welf & Inst. Code
§361(c)(1)-(5)), that finding is typically years prior to an adjudication regarding
termination of parental rights. Such a finding made years prior to the termination

8

proceedings does not obviate the due process requirement for a finding of parental
unfitness by clear and convincing evidence at or near in time immediately prior to
the termination of parental rights proceedings.
As pointed out by the Colorado Supreme Court in People in Int. of A.M.D. 648
P.2d 625, 638-639 (Colo. 1982)
The consideration of overriding importance is whether at
the time of the termination proceeding severance of the
parent-child ties is appropriate. We hold that under
Colorado’s statutory scheme the accuracy of the findings
of fact underlying the original adjudication of dependency
or neglect does not approach critical significance in
determining the question.”
The California Court of Appeal in the present case erred when it ruled that a
finding of parental unfitness by clear and convincing evidence need not occur at a
termination of parental rights hearing because of the number of times potential
detriment to the child is found by a preponderance of the evidence under the
California system prior to the termination of parental rights hearing. App. D at 1718. See, also, In re Janee J 74 Cal.App.4th 198, 214 (Ct. App. 1999).
This is an impermissible argument under Santosky and its logic is flawed.
Satisfying a lesser standard of proof a number of times does not equate to
satisfying a higher standard of proof. It would be like finding that a criminal
defendant does not have a right to be found guilty beyond a reasonable doubt at
trial because of the number of times that the evidence against defendant was found
to be sufficient based upon lesser standards in proceedings preliminary to trial.
California cannot evade and eviscerate the requirements set forth in
Santosky by a statutory scheme where the only finding of fact necessary for
termination of parental rights is that the child is adoptable and a parent does not
need to be shown by clear and convincing evidence to be unfit or to have abandoned
the child.

9

This Court in Santosky expressly states:"Nor is it clear that the State
constitutionally could terminate a parent's rights without showing parental
unfitness." Santosky, 455 U.S. at 760 fn. 10. The California Supreme Court itself
has recognized that a showing of parental unfitness is generally required for
termination of parental rights. A.B. v. A.C., 45 Cal.4th 1110, 1117 (Ct. App. 2009).
Since a finding of parental unfitness is constitutionally required for
termination of parental rights, such finding must constitutionally be a part of, or
closely preceding, the termination proceedings and such finding must be by clear
and convincing evidence.
Custody of a child is a primary liberty right of the parents. Due process
demands that such fundamental right not be terminated by the state unless there is
a finding at the termination proceeding (or closely before) by clear and convincing
evidence thatthe parent is unfit or has abandoned the child.
Cynthia D is wrong.
The present case is a good example of a case that would not pass muster were
a clear and convincing evidence standard applied.The evidence supporting the
supposed parental unfitness of Petitioner Elizabeth C was that she allowed her
toddler son to play with sticks in the park, that she allowed her son to get wet in a
pool of water no more than an inch in depth, that as an infant she offered her baby
a bottle when the DCFS worker felt that the child was not hungry, and that, on one
occasion, she smoked marijuana (a legal substance) at a time when she was not
engaged in visitation. Petitioner was shown to have attended the required
parenting classes, to have passed all drug tests, and to have been medication
compliant to the point to where the medical condition that caused the taking of the
child was in complete remission. 1 Superior Court Clerk’s Transcript 0130, 0153,
0166, 0182-0183, 2 Superior Court Clerk’s Transcript 0338-0344.
As stated by this Court in Santosky:

10

“An elevated standard of proof in a parental rights
termination proceeding would alleviate ‘the possible risk
that a factfinder might decide to [deprive] an individual
based solely on a few isolated instances of unusual
conduct [or] . . . idiosyncratic behavior.’ Addington v.
Texas, 441 U.S., at 427.” Santosky, 455 U.S.
at 764.
It is imperative, and due process demands, that before there is a termination
of parental rights that the parent’s unfitness or abandonment be proven by at least
clear and convincing evidence at or close in time prior to the termination. The vast
majority of parents would rather go to jail for a crime (where the standard of proof
is beyond a reasonable doubt) than permanently lose custody of their child. That is
how important this fundamental liberty interest is to parents.
Termination of parental rights where such a determination of parental
unfitness or abandonment by clear and convincing does not occur is
unconstitutional as a violation of due process.
It is beyond time for California to be brought in line with all the other states and
with the due process requirements of the Constitution and to require that parental
unfitness or abandonment be proven by clear and convincing evidence at, or near in
time prior to, the termination proceedings.
Among the circumstances set forth in Rule 10 as a basis for granting a petition
for writ of certiorari is where: “(c) a state court… has decided an important federal
question in a way that conflicts with relevant decisions of this Court.”
Such a circumstance exists in the present instance since the California Supreme
Court has determined that the State of California does not need to comply with
Stantosky and permits the state courts to terminate parental rights without proving
parental unfitness by clear and convincing evidence at or near in time to the termination
of parental rights.

11

CONCLUSION
For the reasons given herein, petitioner requests that this Court grant her
petition for a writ of certiorari.
DATED: June 18, 2021
By:

12

/s/ Ronald D. Tym
RONALD D. TYM, ESQ.
Attorney for Petitioner

APPENDIX A

APPENDIX B

APPENDIX C

APPENDIX D

&28572)$33($/²6(&21'',67

FIL IB D
Oct 13, 2020

DANIEL P. POTTER, Clerk

CLynch

Filed 10/13/20

NOT TO BE PUBLISHED IN THE OFFICIAL REPORTS
California Rules of Court, rule 8.1115(a), prohibits courts and parties from citing or relying on opinions
not certified for publication or ordered published, except as specified by rule 8.1115(b). This opinion
has not been certified for publication or ordered published for purposes of rule 8.1115.

IN THE COURT OF APPEAL OF THE STATE OF CALIFORNIA
SECOND APPELLATE DISTRICT
DIVISION SEVEN
In re ALEXANDER C., a
Person Coming Under the
Juvenile Court Law.

B304128
(Los Angeles County
Super. Ct. No. 18CCJP00695A)

LOS ANGELES COUNTY
DEPARTMENT OF
CHILDREN AND FAMILY
SERVICES,
Plaintiff and Respondent,
v.
ELIZABETH C.,
Defendant and Appellant.

APPEAL from orders of the Superior Court of Los Angeles
County, Rudolph A. Diaz, Judge. Affirmed.
Ronald D. Tym for Defendant and Appellant.

Deputy Clerk

Mary C. Wickham, County Counsel, Kim Nemoy, Assistant
County Counsel, and Tracey Dodds, Principal Deputy County
Counsel, for Plaintiff and Respondent.
______________________________________
Elizabeth C., the mother of two-year-old Alexander C.,1
appeals the juvenile court’s order summarily denying her request
for a modification of court order and the court’s order terminating
her parental rights. We affirm.
FACTUAL AND PROCEDURAL BACKGROUND
1. The Dependency Determination
Seven-week-old Alexander was taken into custody by the
Los Angeles Department of Children and Family Services
(Department) on January 29, 2018 after police responded to an
emergency call that Elizabeth was behaving erratically in a
restaurant, yelling at patrons and holding Alexander by the head
while swinging him around. Placed on a temporary Welfare and
Institutions Code section 51502 hold, Elizabeth told the evaluator
she had been drinking and smoking marijuana. She also said
Alexander had demons and serpents in him and would be
crucified.
On March 22, 2018 the juvenile court sustained a petition
pursuant to section 300, subdivision (b), finding Alexander was at
According to his birth certificate, “Alexander” is the child’s
middle name. However, the petition was filed prior to issuance of
the birth certificate and used Alexander as the first name. The
child is referred to by both his first and middle names throughout
the record. For simplicity we refer to him as Alexander to
conform to the caption of the case.
1

2

Statutory references are to this code.

2

substantial risk of serious physical harm because Elizabeth had a
history of mental and emotional problems, including a diagnosis
of bipolar disorder, that rendered her incapable of providing
Alexander with regular care and supervision. At the disposition
hearing on April 12, 2018 Alexander was declared a dependent of
the court; removed from Elizabeth’s physical custody based on a
finding, by clear and convincing evidence, there would be a
substantial danger to the child’s physical health and safety if he
were returned home; and placed in foster care. Family
reunification services were ordered for Elizabeth, including
completion of a parenting course, a psychiatric evaluation and
individual counseling. Elizabeth was also ordered to take all
prescribed psychotropic medications and submit to five drug
tests. The court ordered monitored visits twice a week for two
hours per visit.
2. The Six-month Review Hearing
In its status review report for the six-month review hearing
(§ 366.21, subd. (e)) filed September 19, 2018, the Department
reported Elizabeth had been seeing a psychiatrist and a therapist
and was consistently taking her prescribed medication.
Elizabeth was attending a parenting course and had consistently
tested negative for drugs. However, the Department expressed
concern Elizabeth had demonstrated an inability to appropriately
supervise Alexander during visits. The monitor said Elizabeth
was not alert or focused on Alexander’s activities during visits
and she had repeatedly allowed him to engage in potentially
dangerous behavior such as playing with an eyeliner pencil and
almost pulling a cabinet down on top of him. When asked about
these incidents by the social worker, Elizabeth stated, “You know
things happen to children.” The Department recommended the

3

court terminate reunification services because Elizabeth had
“shown poor ability to appropriately keep her son safe while
under her care and supervision” and had “demonstrated a lot of
difficulty in comprehending age appropriate supervision.”
At the hearing on October 19, 2018 the juvenile court found
Elizabeth had made substantial progress on her case plan and
ordered the Department to continue to provide family
reunification services.
3. The 12-month Review Hearing and Termination of
Reunification Services
A contested review hearing was held on May 22, 2019 and
June 5, 2019. Elizabeth’s therapist and psychiatrist each
testified Elizabeth had been consistently attending therapy and
had been compliant with her medication, although the therapist
stated Elizabeth had expressed some skepticism she actually
suffered from bipolar disorder.
Alexander’s foster mother, Adriana B., testified Alexander
was placed with her when he was seven weeks old. Adriana had
monitored many of Elizabeth’s visits with Alexander and
reported a series of incidents during which she had to intervene
because Elizabeth had not been adequately supervising
Alexander. On one occasion Alexander had tried to leave the
visiting room, and Elizabeth pulled him back by his arm, causing
him to bump his head. At other visits Alexander reached for toys
and books on high shelves, causing them to fall or almost fall on
him. He also stood on a chair by himself while Elizabeth
watched. In addition, Elizabeth tried to feed Alexander
inappropriate items such as a whole cashew, tea and coffee.
Adriana also described a visit on January 18, 2019 during
which Alexander tripped over Elizabeth’s outstretched legs and

4

hit his head on a table, resulting in a black eye. Adriana took
Alexander to urgent care for treatment. Elizabeth did not go
with them to urgent care and later told the social worker the
black eye did not look that bad. On February 22, 2019 Adriana
monitored a visit at a park during which Elizabeth let Alexander
play with sticks and rocks and walk too close to the parking lot.
At one point during the visit Alexander walked to the edge of a
pond by himself and fell near the edge with his legs landing in
the water.
Elizabeth testified she accepted her diagnosis of bipolar
disorder and intended to continue treatment and take prescribed
medication. She had completed two parenting courses and had
started narcotics anonymous but did not yet have a sponsor.
Elizabeth admitted using marijuana in March 2019, just
two months prior to the hearing; but she insisted it was the only
time she had used marijuana during the pendency of the case and
it would not happen again. Elizabeth did not recall some of the
incidents Adriana had described as occurring during her visits
with Alexander. Regarding Alexander’s visit to urgent care after
hitting his head, Elizabeth explained she did not go with him
because she believed Adriana could handle it and she was not
invited to go. She also stated the pond Alexander had stumbled
into was within a children’s play area and was only a few inches
deep. She said Alexander had not been in danger because she
had been with him.
The Department, joined by Alexander’s counsel,
recommended the juvenile court terminate Elizabeth’s
reunification services. While recognizing Elizabeth had made
progress in therapy, the Department remained concerned
Elizabeth could not maintain a safe environment for Alexander.

5

She had repeatedly demonstrated an inability to closely supervise
Alexander and prevent him from engaging in potentially
dangerous behavior.
The juvenile court found by a preponderance of the
evidence that returning Alexander to Elizabeth’s custody would
create a substantial risk of serious harm. The court was
particularly concerned Elizabeth had used marijuana only
two months before the hearing, which, it stated, was “either an
issue of extremely poor judgment, or it is a symptom of her
mental health issues that she can just not appreciate the
seriousness of her behavior.”3 Regarding the safety concerns
raised by the Department, the court stated none of the incidents
alone warranted a finding Alexander would be at risk of harm if
returned to Elizabeth but “taken in totality,” and coupled with
Elizabeth’s apparent indifference when Alexander was taken to
urgent care, the incidents raised concerns Elizabeth could not
appropriately care for Alexander. The court terminated
Elizabeth’s reunification services and set a permanency planning
hearing.
Following the ruling terminating her reunification services,
Elizabeth filed a writ petition pursuant to section 366.26,
subd. (l), which we denied on the merits on September 10, 2019.

The reporter’s transcripts of the May 22, 2019 and June 5,
2019 proceedings were not included in the record on appeal, but
were included in the proceedings on Elizabeth’s writ petition filed
in June 2019. (See Elizabeth C. v. Superior Court (Sept. 10, 2019,
B298804) [nonpub. opn.].) We augment the record on our own
motion with these transcripts. (Cal. Rules of Court,
rule 8.155(a)(1)(B).)
3

6

(See Elizabeth C. v. Superior Court (Sept. 10, 2019, B298804)
[nonpub. opn.].)
4. Section 366.26 Report
In reports filed prior to the selection and implementation
hearing the Department recommended Elizabeth’s parental
rights be terminated and Adriana and her husband be designated
as Alexander’s prospective adoptive parents. The Department
reported that Adriana and her husband had been caring for
Alexander since he was two months old and had developed a
parent-child relationship with him. Although Elizabeth had
continued to visit Alexander since the termination of
reunification services, she generally just watched him play with
toys and did not actively engage with him.
5. Elizabeth’s Section 388 Petition
On January 13, 2020, the day of the selection and
implementation hearing, Elizabeth filed a section 388 petition
seeking to modify the June 5, 2019 order terminating
reunification services. The petition sought reinstatement of
reunification services, a home-of-parent order and cancellation of
the section 366.26 hearing. Elizabeth argued the court’s
justifications for terminating reunification services were
insufficient, the foster mother’s testimony regarding safety
concerns was unreliable and the Department had failed to
provide services ordered by the court. Elizabeth submitted a
declaration in support of the petition, which stated the pond in
which Alexander had fallen during a visit was only an inch deep,
she had completed two parenting courses, she had used
marijuana only once during the case and she did not go to the
hospital with Alexander when he got a black eye because the

7

foster mother had previously not allowed her to go to medical
visits. Elizabeth also stated she had continued to visit Alexander
since the June 5, 2019 hearing, had continued to attend therapy
and was taking all prescribed medications. Attached to the
declaration were photographs of the pond and a certificate of
completion for a parenting course.
6. The Section 366.26 Selection and Implementation
Hearing
On January 13, 2020, at the outset of the section 366.26
hearing, the court summarily denied Elizabeth’s section 388
petition. The court found Elizabeth had not presented any new
evidence or change of circumstances and the proposed change of
order did not promote Alexander’s best interests.
The Department, joined by Alexander’s counsel, requested
the court terminate Elizabeth’s parental rights. Elizabeth
argued the court’s prior findings were incorrect and she had fully
complied with her case plan. The juvenile court terminated
parental rights, finding by clear and convincing evidence
Alexander was adoptable and no exception to adoption applied.4
The court ordered adoption to continue as Alexander’s permanent
plan and designated Adriana and her husband as the prospective
adoptive parents.

The court also terminated the parental rights of Gregory S.,
Alexander’s biological father.
4

8

DISCUSSION
1. The Trial Court Did Not Abuse Its Discretion by
Summarily Denying the Section 388 Petition
a. Governing law
Section 388 provides for modification of juvenile court
orders when the moving party presents new evidence or a change
of circumstances and demonstrates modification of the previous
order is in the child’s best interests. (In re Stephanie M. (1994)
7 Cal.4th 295, 317; In re Jasmon O. (1994) 8 Cal.4th 398, 415.)
To obtain a hearing on a section 388 petition, the parent must
make a prima facie showing as to both elements. (In re K.L.
(2016) 248 Cal.App.4th 52, 61; In re G.B. (2014) 227 Cal.App.4th
1147, 1157; see Cal. Rules of Court, rule 5.570(d)(1).)
The petition should be liberally construed in favor of
granting a hearing, but “[t]he prima facie requirement is not met
unless the facts alleged, if supported by evidence given credit at
the hearing, would sustain a favorable decision on the petition.”
(In re Zachary G. (1999) 77 Cal.App.4th 799, 806; accord, In re
K.L., supra, 248 Cal.App.4th at p. 61.) The petition may not
consist of “general, conclusory allegations.” (In re Edward H.
(1996) 43 Cal.App.4th 584, 593.) “Successful petitions have
included declarations or other attachments which demonstrate
the showing the petitioner will make” at the hearing. (In re
Anthony W. (2001) 87 Cal.App.4th 246, 250.) When determining
whether the petition makes the necessary showing, the court may
consider the entire factual and procedural history of the case.
(In re K.L., at p. 62; In re Jackson W. (2010) 184 Cal.App.4th 247,
258.)

9

We review the summary denial of a section 388 petition for
abuse of discretion. (In re K.L., supra, 248 Cal.App.4th at p. 61;
In re A.S. (2009) 180 Cal.App.4th 351, 358.) We may disturb the
juvenile court’s exercise of discretion only in the rare case when
the court has made an arbitrary, capricious or patently absurd
determination. (In re Stephanie M., supra, 7 Cal.4th at p. 318.)
b. Elizabeth’s section 388 petition failed to state a prima
facie case for modification of a prior order
Elizabeth contends her section 388 petition sufficiently
stated a prima facie case for modification of the court’s order
terminating reunification services. The petition identified the
following purportedly new evidence: a photograph showing the
depth of the pond in which Alexander fell during a visit; a
certificate of completion indicating Elizabeth had completed a
parenting course in November 2018, and Elizabeth’s statement
she did not ask to accompany Alexander to urgent care after his
black eye because she had previously been denied the opportunity
to attend doctor visits.5 However, evidence regarding each of
Elizabeth also argues the Department’s failure to provide
her drug testing since the prior hearing constitutes new evidence
and a change in circumstance. However, it is unclear testing was
actually ordered. While the minute order for the June 5, 2019
hearing states Elizabeth was ordered to test, the reporter’s
transcript includes only a vague reference to testing: “Basically
what [the] court finds [is] that mother hasn’t made significant
progress. That’s the standard at these proceedings. We are only
two months from the 22 entitled limitation, which would be a
month and a half. So extending this case to a 22 would not
accomplish much. She needs to be put on testing again and
demonstrate she’s complied with parenting classes that were not
demonstrated [as] having been completed. She needs to
5

10

these matters had been submitted at prior hearings, including by
Elizabeth’s testimony. Despite having reviewed that evidence,
the court concluded reunification services should be terminated.
Reargument of already determined issues and introduction of
previously available evidence are not the proper functions of a
section 388 petition. (See In re D.B. (2013) 217 Cal.App.4th 1080,
1092 [“‘[t]he term “new evidence” in section 388 means material
evidence that, with due diligence, the party could not have
presented at the dependency proceeding at which the order,
sought to be modified or set aside, was entered’”]; In re
Jamika W. (1997) 54 Cal.App.4th 1446, 1451 [parent failed to
state changed circumstances in support of section 388 petition
where alleged facts had previously been submitted to court].)
Elizabeth also asserted she demonstrated changed
circumstances based on her activities since reunification services
had been terminated. She stated that, since the prior hearing,
she had continued to visit Alexander, attend therapy and take all
prescribed medication. However, Elizabeth had been visiting
Alexander and complying with treatment at the time the court
demonstrate she has insight to parent this child, which I don’t
think she’s been able to do.” In context, the court’s comment
appears to be a recitation of what Elizabeth would need to do if
the court were to extend reunification services to the 18-month
hearing, which it declined to do, not an order for testing.
(See In re Nia A. (2016) 246 Cal.App.4th 1241, 1247, fn. 1 [oral
pronouncement generally prevails over inconsistent minute
order]; In re A.C. (2011) 197 Cal.App.4th 796, 799-800 [same].)
Regardless, even if the court had ordered testing and the
Department had not provided it, Elizabeth has failed to show how
testing would have supported an argument that reinstatement of
services would be in Alexander’s best interests.

11

terminated services, yet the court found that behavior
insufficient to continue reunification services. Without any
supporting detail, the mere assertion she had continued positive
behavior is insufficient to state a prima facie case of material new
evidence of changed circumstances sufficient to sustain a
section 388 petition.
Elizabeth’s petition also failed to address how her conduct
since the prior hearing supported a finding reunification would be
in Alexander’s best interests. (See In re J.C. (2014)
226 Cal.App.4th 503, 527 [a parent’s petition to reopen
reunification efforts “must establish how such a change will
advance the child’s need for permanency and stability”]; see also
Cal. Rules of Court, rule 5.570(d)(1) [juvenile court may
summarily deny section 388 petition that fails to show a change
of circumstances or new evidence that demonstrates a
modification of a prior order would promote the best interest of
the dependent child].)
“[B]est interests is a complex idea” that requires
consideration of a variety of factors. (In re Kimberly F. (1997)
56 Cal.App.4th 519, 531; see In re Jacob P. (2007)
157 Cal.App.4th 819, 832-833.) After the termination of
reunification services, a parent’s interest in the care, custody and
companionship of the child is no longer paramount. (In re
Stephanie M., supra, 7 Cal.4th at p. 317.) Instead, the focus
shifts to the needs of the child for permanency and stability, and
a rebuttable presumption arises that continued foster care is in
the best interest of the child. (In re Marilyn H. (1993) 5 Cal.4th
295, 309-310.) Accordingly, in determining whether a section 388
petitioner has made a prima facie showing that modification is in
the child’s best interests, the juvenile court may consider the

12

entire factual and procedural history of the case, including factors
such as the seriousness of the reason leading to the child’s
removal, the reason the problem was not resolved, the passage of
time since the child’s removal, the relative strength of the
parents’ and foster parents’ bonds with the child, the nature of
the change of circumstance, and the reason the change was not
made sooner. (In re Mickel O. (2011) 197 Cal.App.4th 586, 616;
In re Aaliyah R. (2006) 136 Cal.App.4th 437, 446-447; In re
Justice P. (2004) 123 Cal.App.4th 181, 188-189.)
Elizabeth’s petition makes only conclusory allegations that
reinstating family reunification services, with its attendant delay
in providing Alexander with permanency and stability, would be
in his best interests. As discussed, such general assertions are
not sufficient to carry Elizabeth’s burden to make a prima facie
showing that modification would be in Alexander’s best interests.
(See In re K.L., supra, 248 Cal.App.4th at pp. 62-63; In re
Anthony W., supra, 87 Cal.App.4th at p. 250.)
Alexander was placed in Adriana’s home when he was only
seven weeks old and he has exhibited a strong attachment to her
and her husband. On the other hand, Elizabeth had not had an
unmonitored or overnight visit with Alexander in the two years
the case had been pending at the time of the section 388 petition.
The petition contained no evidence that allowing Elizabeth
additional time to address the case issues would override the
comfort and security of Alexander’s current placement.
Accordingly, the petition failed to state a prima facie case that
modification was in Alexander’s best interests. (See In re
Anthony W., supra, 87 Cal.App.4th at p. 252 [“children should not
be made to wait indefinitely for mother to become an adequate
parent”]; In re Edward H., supra, 43 Cal.App.4th at p. 594 [“the

13

prospect of an additional six months of reunification to see if the
mother [could comply with her case plan objectives] would not
have promoted stability for the children and thus would not have
promoted their best interests”].)
2. The Juvenile Court’s Termination of Elizabeth’s Parental
Rights Pursuant to Section 366.26 Did Not Violate Due
Process
a. Section 366.26
The express purpose of a section 366.26 hearing is “to
provide stable, permanent homes” for dependent children.
(§ 366.26, subd. (b).) Once the court has decided to end parentchild reunification services, the legislative preference is for
adoption. (§ 366.26, subd. (b)(1); In re S.B. (2009) 46 Cal.4th 529,
532 [“[i]f adoption is likely, the court is required to terminate
parental rights, unless specified circumstances compel a finding
that termination would be detrimental to the child”]; In re
Celine R. (2003) 31 Cal.4th 45, 53 [“[I]f the child is adoptable . . .
adoption is the norm. Indeed, the court must order adoption and
its necessary consequence, termination of parental rights, unless
one of the specified circumstances provides a compelling reason
for finding that termination of parental rights would be
detrimental to the child.”]; see In re Marilyn H., supra, 5 Cal.4th
at p. 307 [once reunification efforts have been found unsuccessful,
the state has a “compelling” interest in “providing stable,
permanent homes for children who have been removed from
parental custody,” and the court then must “concentrate its
efforts . . . on the child’s placement and well-being, rather than on
a parent’s challenge to a custody order”]; see also In re

14

Breanna S. (2017) 8 Cal.App.5th 636, 645-646; In re Noah G.
(2016) 247 Cal.App.4th 1292, 1299-1300.)
Section 366.26 requires the juvenile court to conduct a
two-part inquiry at the selection and implementation hearing.
First, the court determines whether there is clear and convincing
evidence the child is likely to be adopted within a reasonable
time. (Cynthia D. v. Superior Court (1993) 5 Cal.4th 242, 249-250
(Cynthia D.); In re D.M. (2012) 205 Cal.App.4th 283, 290.) Then,
if the court finds by clear and convincing evidence the child is
likely to be adopted, the statute mandates judicial termination of
parental rights unless the parent opposing termination can
demonstrate one of the enumerated statutory exceptions applies.
(§ 366.26, subd. (c)(1)(A) & (B); see Cynthia D., at pp. 250, 259
[when the child is adoptable and declining to apply one of the
statutory exceptions would not cause detriment to the child, the
decision to terminate parental rights is relatively automatic].)
b. Due process does not require a finding of parental
unfitness by clear and convincing evidence at the
section 366.26 hearing
Parents have a fundamental interest, protected by the due
process clause of the Fourteenth Amendment, in the care,
companionship and custody of their children. (Santosky v.
Kramer (1982) 455 U.S. 745, 748 [102 S.Ct. 1388, 71 L.Ed.2d 599]
(Santosky).) Accordingly, the equivalent of a finding of parental
unfitness, established by clear and convincing evidence, is
necessary at some point in dependency proceedings as a matter of
due process before parental rights may be terminated.

15

(In re Jasmon O., supra, 8 Cal.4th at p. 423; see Santosky, at
pp. 747-748.)6
Relying on Santosky, supra, 455 U.S. 745, Elizabeth
contends section 366.26 violates her due process rights because it
permits the juvenile court to terminate parental rights at the
selection and implementation hearing without finding by clear
and convincing evidence that return of the child to parental
custody would create a substantial risk of detriment to the child.
Elizabeth’s argument was squarely rejected by the California
Supreme Court in Cynthia D., supra, 5 Cal.4th 242.
“‘In Santosky v. Kramer, supra, 455 U.S. 745 the
United States Supreme Court considered New York’s procedures
for the termination of parental rights upon a determination that
a child was “permanently neglected.” Under New York law a
child could be removed from parental custody upon a finding of
neglect and the parental relationship could be severed upon a
finding of permanent neglect.’” (Cynthia D., supra, 5 Cal.4th at
p. 250.) Under New York law permanent neglect had to be
proven by a preponderance of the evidence. (Santosky, at p. 748.)
The Supreme Court held that parental rights “‘are a fundamental
liberty interest and the standard of proof required in an action to
A finding of detriment to the child if care and custody were
returned to the parent corresponds to a finding of parental
unfitness and is sufficient to support an order terminating
parental rights: “‘California’s dependency scheme no longer uses
the term “parental unfitness,” but instead requires the juvenile
court make a finding that awarding custody of a dependent child
to a parent would be detrimental to the child.’” (In re Frank R.
(2011) 192 Cal.App.4th 532, 537; accord, In re D.H. (2017)
14 Cal.App.5th 719, 731; In re P.A. (2007) 155 Cal.App.4th 1197,
1212.)
6

16

terminate such rights requires a balancing of the private
interests affected, the risk of error created by the state’s chosen
procedure, and the countervailing governmental interest
supporting the procedure.’” (Cynthia D., at p. 251.) After
analyzing New York’s statutes governing termination of parental
rights pursuant to these factors, the Court concluded the New
York procedure did not meet due process requirements. The
Court held that, “[b]efore a State may sever completely and
irrevocably the rights of parents in their natural child, due
process requires that the State support its allegations by at least
clear and convincing evidence.” (Santosky, at pp. 747-748.)
In Cynthia D. the California Supreme Court addressed
whether California’s procedures for termination of parental
rights violated the due process principles set forth in Santosky.
The mother in Cynthia D. had filed a petition for writ of mandate
a few days before the section 366.26 hearing seeking to have the
order setting the section 366.26 hearing vacated. “Mother
claimed that the statutory provisions violated due process
because they allowed findings of detriment to be made by a
preponderance of the evidence rather than by clear and
convincing evidence.” (Cynthia D., supra, 5 Cal.4th at p. 246.)
After reviewing the holding in Santosky and the factors it
considered, the Supreme Court concluded, “[S]ection 366.26
cannot properly be understood except in the context of the entire
dependency process of which it is part. Unlike the termination
hearings evaluated in Santosky v. Kramer, supra, 455 U.S.
745 . . . the purpose of the section 366.26 hearing is not to
accumulate further evidence of parental unfitness and danger to
the child, but to begin the task of finding the child a permanent
alternative family placement. By the time dependency

17

proceedings have reached the stage of a section 366.26 hearing,
there have been multiple specific findings of parental unfitness.
Except for a temporary period, the grounds for initial removal of
the child from parental custody have been established under a
clear and convincing standard [citation]; in addition, there have
been a series of hearings involving ongoing reunification efforts
and, at each hearing, there was a statutory presumption that the
child should be returned to the custody of the parent. [Citations.]
Only if, over this entire period of time, the state continually has
established that a return of custody to the parent would be
detrimental to the child is the section 366.26 stage even reached.
[¶] We therefore conclude that the three factors relied upon in
Santosky v. Kramer, supra, 455 U.S. 745, to require an elevated
standard of proof do not compel the use of that standard in this
case under our statutory scheme.” (Cynthia D., supra, 5 Cal.4th
at p. 253, fn. omitted.)
Accordingly, the Court stated, “Considered in the context of
the entire process for terminating parental rights under the
dependency statutes, the procedure specified in section 366.26 for
terminating parental rights comports with the due process clause
of the Fourteenth Amendment because the precise and
demanding substantive and procedural requirements the
petitioning agency must have satisfied before it can propose
termination are carefully calculated to constrain judicial
discretion, diminish the risk of erroneous findings of parental
inadequacy and detriment to the child, and otherwise protect the
legitimate interests of the parents. At this late stage in the
process the evidence of detriment is already so clear and
convincing that more cannot be required without prejudice to the
interests of the adoptable child, with which the state must now

18

align itself. Thus the proof by a preponderance standard is
sufficient at this point. [¶] We conclude that the standard of
proof for termination of parental rights under the child
dependency statutes comports with the requirements of due
process.” (Cynthia D., supra, 5 Cal.4th at p. 256.)
Recognizing the holding in Cynthia D. is fatal to her
argument, Elizabeth urges us to disregard it as incorrectly
decided. However, she has failed to cite any governing case law
or statutory enactment overruling or undermining the holding or
reasoning in Cynthia D. Accordingly, we are bound to follow it.
(Auto Equity Sales, Inc. v. Superior Court (1962) 57 Cal.2d 450,
455.)
Elizabeth next tries to evade the reasoning of Cynthia D. by
arguing the Court’s statements regarding the constitutionality of
section 366.26 are nonbinding dicta because the writ proceeding
occurred before the section 366.26 hearing in that case had taken
place. While it is true the mother's parental rights had not yet
been terminated in Cynthia D., the Court defined the scope of its
analysis broadly, stating “The sole issue raised in the petition for
review in this case is a due process challenge to the statutory
provisions that allow termination of parental rights based on a
lesser standard of proof than clear and convincing evidence.”
(Cynthia D., supra, 5 Cal.4th at p. 245.) In reviewing these
statutory provisions the Court necessarily considered the
constitutionality of section 366.26. (See In re Brittany M. (1993)
19 Cal.App.4th 1396, 1399 [“stare decisis compels us to follow
Cynthia D. [citation], insofar as it holds a preponderance of
evidence standard sufficient to meet due process requirements”
at a section 366.26 hearing]; see also Guardianship of Ann S.
(2009) 45 Cal.4th 1110, 1134 [“[i]n a dependency proceeding, due

19

process is satisfied if unfitness is established at an earlier stage,
and parental rights terminated later based on the child’s best
interest]; In re D.H. (2017) 14 Cal.App.5th 719, 730-731
[detriment finding based on clear and convincing evidence “may
be made at the dispositional stage or during a subsequent review
period, but it must occur prior to termination”].)
DISPOSITION
The January 13, 2020 orders of the juvenile court denying
the section 388 petition for modification of prior court orders and
terminating parental rights are affirmed.

PERLUSS,
PERLUSS P.
P J.
J
We concur:

SEGAL, J.

FEUER, J.

20

APPENDIX E

SUPREME COURT

FILED
JAN 2 0 2021
Court of Appeal, Second Appellate District, Division Seven - No. B304128
Jorge Navarrete Clerk

S265630
Deputy

IN THE SUPREME COURT OF CALIFORNIA
En Banc
In re ALEXANDER C., a Person Coming Under the Juvenile Court Law.

LOS ANGELES COUNTY DEPARTMENT OF CHILDREN AND FAMILY
SERVICES, Plaintiff and Respondent,
V.

ELIZABETH C., Defendant and Appellant.

The petition for review is denied.

Chief Justice

APPENDIX F

Home

Bill Information

California Law

Publications

Other Resources

My Subscriptions

Code: Select Code

Up^<< Previous Next >>

cross-reference chaptered bills

My Favorites

Section: 1 or 2 or 1001

Search

PDF | Add To My Favorites
Search Phrase:

Highlight

WELFARE AND INSTITUTIONS CODE - WIC
DIVISION 2. CHILDREN [100 - 1500] ( Division 2 enacted by Stats. 1937, Ch. 369. )
PART 1. DELINQUENTS AND WARDS OF THE JUVENILE COURT [100 - 1459] ( Part 1 enacted by Stats. 1937, Ch. 369.
)
CHAPTER 2. Juvenile Court Law [200 - 987] ( Chapter 2 repealed and added by Stats. 1961, Ch. 1616. )
ARTICLE 10. Dependent Children—Judgments and Orders [360 - 371] ( Article 10 added by Stats. 1976, Ch. 1068. )
361. (a) (1) In all cases in which a minor is adjudged a dependent child of the court on the ground that the minor is
a person described by Section 300, the court may limit the control to be exercised over the dependent child by any
parent, guardian, or Indian custodian and shall by its order clearly and specifically set forth all those limitations.
Any limitation on the right of the parent, guardian, or Indian custodian to make educational or developmental
services decisions for the child shall be specifically addressed in the court order. The limitations may not exceed
those necessary to protect the child. If the court specifically limits the right of the parent, guardian, or Indian
custodian to make educational or developmental services decisions for the child, or, for the nonminor dependent, if
the court finds the appointment of a developmental services decisionmaker to be in the best interests of the
nonminor dependent, the court shall at the same time appoint a responsible adult to make educational or
developmental services decisions for the child or nonminor dependent until one of the following occurs:
(A) The minor reaches 18 years of age, unless the child or nonminor dependent chooses not to make educational or
developmental services decisions for himself or herself, or is deemed by the court to be incompetent.
(B) Another responsible adult is appointed to make educational or developmental services decisions for the minor
pursuant to this section.
(C) The right of the parent, guardian, or Indian custodian to make educational or developmental services decisions
for the minor is fully restored.
(D) A successor guardian or conservator is appointed.
(E) The child is placed into a planned permanent living arrangement pursuant to paragraph (5) of subdivision (g) of
Section 366.21, Section 366.22, Section 366.26, or subdivision (i) of Section 366.3, at which time, for educational
decisionmaking, the foster parent, relative caretaker, or nonrelative extended family member as defined in Section
362.7, has the right to represent the child in educational matters pursuant to Section 56055 of the Education Code,
and for decisions relating to developmental services, unless the court specifies otherwise, the foster parent, relative
caregiver, or nonrelative extended family member of the planned permanent living arrangement has the right to
represent the child or nonminor dependent in matters related to developmental services.
(2) An individual who would have a conflict of interest in representing the child or nonminor dependent shall not be
appointed to make educational or developmental services decisions. For purposes of this section, “an individual who
would have a conflict of interest” means a person having any interests that might restrict or bias his or her ability
to make educational or developmental services decisions, including, but not limited to, those conflicts of interest
prohibited by Section 1126 of the Government Code, and the receipt of compensation or attorney’s fees for the
provision of services pursuant to this section. A foster parent shall not be deemed to have a conflict of interest
solely because he or she receives compensation for the provision of services pursuant to this section.
(3) Regardless of the person or persons currently holding the right to make educational decisions for the child, a
foster parent, relative caregiver, nonrelated extended family member, or resource family shall retain rights and
obligations regarding accessing and maintaining health and education information pursuant to Sections 49069.3
and 49076 of the Education Code and Section 16010 of this code.

(4) (A) If the court limits the parent’s, guardian’s, or Indian custodian’s educational rights pursuant to this
subdivision, the court shall determine whether there is a responsible adult who is a relative, nonrelative extended
family member, or other adult known to the child who is available and willing to serve as the child’s educational
representative before appointing an educational representative or surrogate who is not known to the child.
(B) If the court cannot identify a responsible adult who is known to the child and available to make educational
decisions for the child, subparagraphs (A) to (E), inclusive, of paragraph (1) do not apply, and the child has either
been referred to the local educational agency for special education and related services, or has a valid
individualized education program, the court shall refer the child to the local educational agency for appointment of
a surrogate parent pursuant to Section 7579.5 of the Government Code.
(C) If the court cannot identify a responsible adult to make educational decisions for the child, the appointment of a
surrogate parent as defined in subdivision (a) of Section 56050 of the Education Code is not warranted, and there is
no foster parent to exercise the authority granted by Section 56055 of the Education Code, the court may, with the
input of any interested person, make educational decisions for the child.
(5) (A) If the court appoints a developmental services decisionmaker pursuant to this section, he or she shall have
the authority to access the child’s or nonminor dependent’s information and records pursuant to subdivision (u) of
Section 4514 and paragraph (23) of subdivision (a) of Section 5328, and to act on the child’s or nonminor
dependent’s behalf for the purposes of the individual program plan process pursuant to Sections 4646, 4646.5, and
4648 and the fair hearing process pursuant to Chapter 7 (commencing with Section 4700) of Division 4.5, and as
set forth in the court order.
(B) If the court cannot identify a responsible adult to make developmental services decisions for the child or
nonminor dependent, the court may, with the input of any interested person, make developmental services
decisions for the child or nonminor dependent. If the child is receiving services from a regional center, the provision
of any developmental services related to the court’s decision must be consistent with the child’s or nonminor
dependent’s individual program plan and pursuant to the provisions of the Lanterman Developmental Disabilities
Services Act (Division 4.5 (commencing with Section 4500)).
(6) All educational and school placement decisions shall seek to ensure that the child is in the least restrictive
educational programs and has access to the academic resources, services, and extracurricular and enrichment
activities that are available to all pupils. In all instances, educational and school placement decisions shall be based
on the best interests of the child. If an educational representative or surrogate is appointed for the child, the
representative or surrogate shall meet with the child, shall investigate the child’s educational needs and whether
those needs are being met, and shall, prior to each review hearing held under this article, provide information and
recommendations concerning the child’s educational needs to the child’s social worker, make written
recommendations to the court, or attend the hearing and participate in those portions of the hearing that concern
the child’s education.
(7) Nothing in this section in any way removes the obligation to appoint surrogate parents for students with
disabilities who are without parental representation in special education procedures as required by state and federal
law, including Section 1415(b)(2) of Title 20 of the United States Code, Section 56050 of the Education Code,
Section 7579.5 of the Government Code, and Rule 5.650 of the California Rules of Court.
(b) (1) Subdivision (a) does not limit the ability of a parent to voluntarily relinquish his or her child to the State
Department of Social Services, to a county adoption agency, or to a licensed private adoption agency at any time
while the child is the subject of a petition to declare him or her, or is, a dependent child of the juvenile court, if the
department, county adoption agency, or licensed private adoption agency is willing to accept the relinquishment.
(2) When accepting the relinquishment of a child described in paragraph (1), the department or a county adoption
agency shall comply with Section 8700 of the Family Code and, within five court days of accepting the
relinquishment, shall file written notice of that fact with the court and all parties to the case and their counsel.
(3) When accepting the relinquishment of a child described in paragraph (1), a licensed private adoption agency
shall comply with Section 8700 of the Family Code and, within 10 court days of accepting the relinquishment, shall
file or allow another party or that party’s counsel to file with the court one original and five copies of a request to
approve the relinquishment. The clerk of the court shall file the request under seal, subject to examination only by
the parties and their counsel or by others upon court approval. If the request is accompanied by the written
agreement of all parties, the court may issue an ex parte order approving the relinquishment. Unless approved
pursuant to that agreement, the court shall set the matter for hearing no later than 10 court days after filing, and
shall provide notice of the hearing to all parties and their counsel, and to the licensed private adoption agency and
its counsel. The licensed private adoption agency and any prospective adoptive parent or parents named in the
relinquishment shall be permitted to attend the hearing and participate as parties regarding the strictly limited

issue of whether the court should approve the relinquishment. The court shall issue an order approving or denying
the relinquishment within 10 court days after the hearing.
(4) Nothing in this subdivision suspends the requirements for voluntary adoptive placement under the federal
Indian Child Welfare Act of 1978 (25 U.S.C. Sec. 1901 et seq.).
(c) A dependent child shall not be taken from the physical custody of his or her parents, guardian or guardians, or
Indian custodian with whom the child resides at the time the petition was initiated, unless the juvenile court finds
clear and convincing evidence of any of the following circumstances listed in paragraphs (1) to (5), inclusive, and,
where it is known or there is reason to know that the child is an Indian child, as defined by Section 224.1,
paragraph (6):
(1) There is or would be a substantial danger to the physical health, safety, protection, or physical or emotional
well-being of the minor if the minor were returned home, and there are no reasonable means by which the minor’s
physical health can be protected without removing the minor from the minor’s parent’s, guardian’s, or Indian
custodian’s physical custody. The fact that a minor has been adjudicated a dependent child of the court pursuant to
subdivision (e) of Section 300 shall constitute prima facie evidence that the minor cannot be safely left in the
physical custody of the parent, guardian, or Indian custodian with whom the minor resided at the time of injury.
The court shall consider, as a reasonable means to protect the minor, each of the following:
(A) The option of removing an offending parent, guardian, or Indian custodian from the home.
(B) Allowing a nonoffending parent, guardian, or Indian custodian to retain physical custody as long as that parent,
guardian, or Indian custodian presents a plan acceptable to the court demonstrating that he or she will be able to
protect the child from future harm.
(2) The parent, guardian, or Indian custodian of the minor is unwilling to have physical custody of the minor, and
the parent, guardian, or Indian custodian has been notified that if the minor remains out of their physical custody
for the period specified in Section 366.26, the minor may be declared permanently free from their custody and
control.
(3) The minor is suffering severe emotional damage, as indicated by extreme anxiety, depression, withdrawal, or
untoward aggressive behavior toward himself or herself or others, and there are no reasonable means by which the
minor’s emotional health may be protected without removing the minor from the physical custody of his or her
parent, guardian, or Indian custodian.
(4) The minor or a sibling of the minor has been sexually abused, or is deemed to be at substantial risk of being
sexually abused, by a parent, guardian, Indian custodian, or member of his or her household, or other person
known to his or her parent, and there are no reasonable means by which the minor can be protected from further
sexual abuse or a substantial risk of sexual abuse without removing the minor from his or her parent, guardian, or
Indian custodian, or the minor does not wish to return to his or her parent, guardian, or Indian custodian.
(5) The minor has been left without any provision for his or her support, or a parent, guardian, or Indian custodian
who has been incarcerated or institutionalized cannot arrange for the care of the minor, or a relative or other adult
custodian with whom the child has been left by the parent, guardian, or Indian custodian is unwilling or unable to
provide care or support for the child and the whereabouts of the parent, guardian, or Indian custodian is unknown
and reasonable efforts to locate him or her have been unsuccessful.
(6) In an Indian child custody proceeding, continued custody of the child by the parent or Indian custodian is likely
to result in serious emotional or physical damage to the child, and that finding is supported by testimony of a
“qualified expert witness” as described in Section 224.6.
(A) For purposes of this paragraph, stipulation by the parent, Indian custodian, or the Indian child’s tribe, or failure
to object, may waive the requirement of producing evidence of the likelihood of serious damage only if the court is
satisfied that the party has been fully advised of the requirements of the federal Indian Child Welfare Act of 1978
(25 U.S.C. Sec. 1901 et seq.), and has knowingly, intelligently, and voluntarily waived them.
(B) For purposes of this paragraph, failure to meet non-Indian family and child-rearing community standards, or
the existence of other behavior or conditions that meet the removal standards of this section, will not support an
order for placement in the absence of the finding in this paragraph.
(d) A dependent child shall not be taken from the physical custody of his or her parents, guardian, or Indian
custodian with whom the child did not reside at the time the petition was initiated, unless the juvenile court finds
clear and convincing evidence that there would be a substantial danger to the physical health, safety, protection, or
physical or emotional well-being of the child for the parent, guardian, or Indian custodian to live with the child or
otherwise exercise the parent’s, guardian’s, or Indian custodian’s right to physical custody, and there are no
reasonable means by which the child’s physical and emotional health can be protected without removing the child
from the child’s parent’s, guardian’s, or Indian custodian’s physical custody.

(e) The court shall make a determination as to whether reasonable efforts were made to prevent or to eliminate the
need for removal of the minor from his or her home or, if the minor is removed for one of the reasons stated in
paragraph (5) of subdivision (c), whether it was reasonable under the circumstances not to make any of those
efforts, or, where it is known or there is reason to know that the child is an Indian child, as defined by Section
224.1, whether active efforts, as defined by Section 224.1 and as required in Section 361.7 were made and that
these efforts have proved unsuccessful. The court shall state the facts on which the decision to remove the minor is
based.
(f) The court shall make all of the findings required by subdivision (a) of Section 366 in either of the following
circumstances:
(1) The minor has been taken from the custody of his or her parent, guardian, or Indian custodian and has been
living in an out-of-home placement pursuant to Section 319.
(2) The minor has been living in a voluntary out-of-home placement pursuant to Section 16507.4.
(Amended by Stats. 2018, Ch. 833, Sec. 27. (AB 3176) Effective January 1, 2019.)

Home

Bill Information

California Law

Publications

Other Resources

My Subscriptions

Code: Select Code

Up^<< Previous Next >>

cross-reference chaptered bills

My Favorites

Section: 1 or 2 or 1001

Search

PDF | Add To My Favorites
Search Phrase:

Highlight

WELFARE AND INSTITUTIONS CODE - WIC
DIVISION 2. CHILDREN [100 - 1500] ( Division 2 enacted by Stats. 1937, Ch. 369. )
PART 1. DELINQUENTS AND WARDS OF THE JUVENILE COURT [100 - 1459] ( Part 1 enacted by Stats. 1937, Ch. 369.
)
CHAPTER 2. Juvenile Court Law [200 - 987] ( Chapter 2 repealed and added by Stats. 1961, Ch. 1616. )
ARTICLE 10. Dependent Children—Judgments and Orders [360 - 371] ( Article 10 added by Stats. 1976, Ch. 1068. )
366.25. (a) (1) When a case has been continued pursuant to subdivision (b) of Section 366.22, the subsequent
permanency review hearing shall occur within 24 months after the date the child was originally removed from the
physical custody of his or her parent or legal guardian. After considering the relevant and admissible evidence, the
court shall order the return of the child to the physical custody of his or her parent or legal guardian unless the
court finds, by a preponderance of the evidence, that the return of the child to his or her parent or legal guardian
would create a substantial risk of detriment to the safety, protection, or physical or emotional well-being of the
child. The social worker shall have the burden of establishing that detriment. At the subsequent permanency review
hearing, the court shall consider the criminal history, obtained pursuant to paragraph (1) of subdivision (f) of
Section 16504.5, of the parent or legal guardian subsequent to the child’s removal to the extent that the criminal
record is substantially related to the welfare of the child or parent’s or legal guardian’s ability to exercise custody
and control regarding his or her child provided that the parent or legal guardian agreed to submit fingerprint
images to obtain criminal history information as part of the case plan. The court shall also consider whether the
child can be returned to the custody of a parent who is enrolled in a certified substance abuse treatment facility
that allows a dependent child to reside with his or her parent. The fact that the parent is enrolled in a certified
substance abuse treatment facility shall not be, for that reason alone, prima facie evidence of detriment. The failure
of the parent or legal guardian to participate regularly and make substantive progress in court-ordered treatment
programs shall be prima facie evidence that return would be detrimental. In making its determination, the court
shall review and consider the social worker’s report and recommendations and the report and recommendations of
any child advocate appointed pursuant to Section 356.5; shall consider the efforts or progress, or both,
demonstrated by the parent or legal guardian and the extent to which he or she availed himself or herself of
services provided; and shall make appropriate findings pursuant to subdivision (a) of Section 366.
(2) Whether or not the child is returned to his or her parent or legal guardian, the court shall specify the factual
basis for its decision. If the child is not returned to a parent or legal guardian, the court shall specify the factual
basis for its conclusion that return would be detrimental. If the child is not returned to his or her parent or legal
guardian, the court shall consider and state for the record, in-state and out-of-state options for the child’s
permanent placement. If the child is placed out of the state, the court shall make a determination whether the outof-state placement continues to be appropriate and in the best interests of the child.
(3) If the child is not returned to a parent or legal guardian at the subsequent permanency review hearing, the
court shall order that a hearing be held pursuant to Section 366.26 in order to determine whether adoption, or, in
the case of an Indian child, tribal customary adoption, guardianship, or, in the case of a child 16 years of age or
older when no other permanent plan is appropriate, another planned permanent living arrangement is the most
appropriate plan for the child. On and after January 1, 2012, a hearing pursuant to Section 366.26 shall not be
ordered if the child is a nonminor dependent, unless the nonminor dependent is an Indian child and tribal
customary adoption is recommended as the permanent plan. However, if the court finds by clear and convincing
evidence, based on the evidence already presented to it, including a recommendation by the State Department of
Social Services when it is acting as an adoption agency or by a county adoption agency, that there is a compelling
reason, as described in paragraph (5) of subdivision (g) of Section 366.21, for determining that a hearing held

under Section 366.26 is not in the best interest of the child because the child is not a proper subject for adoption
or, in the case of an Indian child, tribal customary adoption, and has no one willing to accept legal guardianship as
of the hearing date, then the court may, only under these circumstances, order that the child remain in foster care
with a permanent plan of return home, adoption, tribal customary adoption in the case of an Indian child, legal
guardianship, or placement with a fit and willing relative, as appropriate. If the child is 16 years of age or older or is
a nonminor dependent, and no other permanent plan is appropriate at the time of the hearing, the court may order
another planned permanent living arrangement, as described in paragraph (2) of subdivision (i) of Section 16501.
The court shall make factual findings identifying any barriers to achieving the permanent plan as of the hearing
date. On and after January 1, 2012, the nonminor dependent’s legal status as an adult is in and of itself a
compelling reason not to hold a hearing pursuant to Section 366.26. The court may order that a nonminor
dependent who otherwise is eligible pursuant to Section 11403 remain in a planned, permanent living arrangement.
If the court orders that a child who is 10 years of age or older remain in foster care, the court shall determine
whether the agency has made reasonable efforts to maintain the child’s relationships with individuals other than the
child’s siblings who are important to the child, consistent with the child’s best interests, and may make any
appropriate order to ensure that those relationships are maintained. The hearing shall be held no later than 120
days from the date of the subsequent permanency review hearing. The court shall also order termination of
reunification services to the parent or legal guardian. The court shall continue to permit the parent or legal
guardian to visit the child unless it finds that visitation would be detrimental to the child. The court shall determine
whether reasonable services have been offered or provided to the parent or legal guardian. For purposes of this
paragraph, evidence of any of the following circumstances shall not, in and of themselves, be deemed a failure to
provide or offer reasonable services:
(A) The child has been placed with a foster family that is eligible to adopt a child, or has been placed in a
preadoptive home.
(B) The case plan includes services to make and finalize a permanent placement for the child if efforts to reunify
fail.
(C) Services to make and finalize a permanent placement for the child, if efforts to reunify fail, are provided
concurrently with services to reunify the family.
(b) (1) Whenever a court orders that a hearing pursuant to Section 366.26 shall be held, it shall direct the agency
supervising the child and the county adoption agency, or the State Department of Social Services when it is acting
as an adoption agency, to prepare an assessment that shall include:
(A) Current search efforts for an absent parent or parents.
(B) A review of the amount of, and nature of, any contact between the child and his or her parents and other
members of his or her extended family since the time of placement. Although the extended family of each child
shall be reviewed on a case-by-case basis, “extended family” for the purposes of this paragraph shall include, but
not be limited to, the child’s siblings, grandparents, aunts, and uncles.
(C) An evaluation of the child’s medical, developmental, scholastic, mental, and emotional status.
(D) A preliminary assessment of the eligibility and commitment of any identified prospective adoptive parent or
legal guardian, including a prospective tribal customary adoptive parent, particularly the caretaker, to include a
social history including screening for criminal records and prior referrals for child abuse or neglect, the capability to
meet the child’s needs, and the understanding of the legal and financial rights and responsibilities of adoption and
guardianship. If a proposed legal guardian is a relative of the minor, the assessment shall also consider, but need
not be limited to, all of the factors specified in subdivision (a) of Section 361.3 and in Section 361.4.
(E) The relationship of the child to any identified prospective adoptive parent or legal guardian, including a
prospective tribal customary adoptive parent, the duration and character of the relationship, the degree of
attachment of the child to the prospective relative guardian or adoptive parent, the relative’s or adoptive parent’s
strong commitment to caring permanently for the child, the motivation for seeking adoption or legal guardianship, a
statement from the child concerning placement and the adoption or legal guardianship, and whether the child, if
over 12 years of age, has been consulted about the proposed relative guardianship arrangements, unless the child’s
age or physical, emotional, or other condition precludes his or her meaningful response, and if so, a description of
the condition.
(F) An analysis of the likelihood that the child will be adopted if parental rights are terminated.
(G) In the case of an Indian child, in addition to subparagraphs (A) to (F), inclusive, an assessment of the likelihood
that the child will be adopted, when, in consultation with the child’s tribe, a tribal customary adoption, as defined in
Section 366.24, is recommended. If tribal customary adoption is recommended, the assessment shall include an
analysis of both of the following:

(i) Whether tribal customary adoption would or would not be detrimental to the Indian child and the reasons for
reaching that conclusion.
(ii) Whether the Indian child cannot or should not be returned to the home of the Indian parent or Indian custodian
and the reasons for reaching that conclusion.
(2) (A) A relative caregiver’s preference for legal guardianship over adoption, if it is due to circumstances that do
not include an unwillingness to accept legal or financial responsibility for the child, shall not constitute the sole
basis for recommending removal of the child from the relative caregiver for purposes of adoptive placement.
(B) Regardless of his or her immigration status, a relative caregiver shall be given information regarding the
permanency options of guardianship and adoption, including the long-term benefits and consequences of each
option, prior to establishing legal guardianship or pursuing adoption. If the proposed permanent plan is
guardianship with an approved relative caregiver for a minor eligible for aid under the Kin-GAP Program, as
provided for in Article 4.7 (commencing with Section 11385) of Chapter 2 of Part 3 of Division 9, the relative
caregiver shall be informed about the terms and conditions of the negotiated agreement pursuant to Section 11387
and shall agree to its execution prior to the hearing held pursuant to Section 366.26. A copy of the executed
negotiated agreement shall be attached to the assessment.
(c) If, at any hearing held pursuant to Section 366.26, a guardianship is established for the minor with an approved
relative caregiver, and juvenile court dependency is subsequently dismissed, the minor shall be eligible for aid
under the Kin-GAP Program, as provided for in Article 4.5 (commencing with Section 11360) or Article 4.7
(commencing with Section 11385), as applicable, of Chapter 2 of Part 3 of Division 9.
(d) As used in this section, “relative” means an adult who is related to the minor by blood, adoption, or affinity
within the fifth degree of kinship, including stepparents, stepsiblings, and all relatives whose status is preceded by
the words “great,” “great-great,” or “grand,” or the spouse of any of those persons even if the marriage was
terminated by death or dissolution. If the proposed permanent plan is guardianship with an approved relative
caregiver for a minor eligible for aid under the Kin-GAP Program, as provided in Article 4.7 (commencing with
Section 11385) of Chapter 2 of Part 3 of Division 9, “relative” as used in this section has the same meaning as
“relative” as defined in subdivision (c) of Section 11391.
(Amended by Stats. 2015, Ch. 425, Sec. 12. (SB 794) Effective January 1, 2016.)

Home

Bill Information

California Law

Publications

Other Resources

My Subscriptions

Code: Select Code

Up^<< Previous Next >>

cross-reference chaptered bills

My Favorites

Section: 1 or 2 or 1001

Search

PDF | Add To My Favorites
Search Phrase:

Highlight

WELFARE AND INSTITUTIONS CODE - WIC
DIVISION 2. CHILDREN [100 - 1500] ( Division 2 enacted by Stats. 1937, Ch. 369. )
PART 1. DELINQUENTS AND WARDS OF THE JUVENILE COURT [100 - 1459] ( Part 1 enacted by Stats. 1937, Ch. 369.
)
CHAPTER 2. Juvenile Court Law [200 - 987] ( Chapter 2 repealed and added by Stats. 1961, Ch. 1616. )
ARTICLE 10. Dependent Children—Judgments and Orders [360 - 371] ( Article 10 added by Stats. 1976, Ch. 1068. )
366.26. (a) This section applies to children who are adjudged dependent children of the juvenile court pursuant to
subdivision (d) of Section 360. The procedures specified in this section are the exclusive procedures for conducting
these hearings. The procedures in Part 2 (commencing with Section 3020) of Division 8 of the Family Code are not
applicable to these proceedings. Section 8616.5 of the Family Code is applicable and available to all dependent
children meeting the requirements of that section, if the postadoption contact agreement has been entered into
voluntarily. For children who are adjudged dependent children of the juvenile court pursuant to subdivision (d) of
Section 360, this section, and Sections 8604, 8605, 8606, and 8700 of the Family Code and Chapter 5
(commencing with Section 7660) of Part 3 of Division 12 of the Family Code specify the exclusive procedures for
permanently terminating parental rights with regard to, or establishing legal guardianship of, the child while the
child is a dependent child of the juvenile court.
(b) At the hearing, which shall be held in juvenile court for all children who are dependents of the juvenile court,
the court, in order to provide stable, permanent homes for these children, shall review the report as specified in
Section 361.5, 366.21, 366.22, or 366.25, shall indicate that the court has read and considered it, shall receive
other evidence that the parties may present, and then shall make findings and orders in the following order of
preference:
(1) Terminate the rights of the parent or parents and order that the child be placed for adoption and, upon the filing
of a petition for adoption in the juvenile court, order that a hearing be set. The court shall proceed with the
adoption after the appellate rights of the natural parents have been exhausted.
(2) Order, without termination of parental rights, the plan of tribal customary adoption, as described in Section
366.24, through tribal custom, traditions, or law of the Indian child’s tribe, and upon the court affording the tribal
customary adoption order full faith and credit at the continued selection and implementation hearing, order that a
hearing be set pursuant to paragraph (2) of subdivision (e).
(3) Appoint a relative or relatives with whom the child is currently residing as legal guardian or guardians for the
child, and order that letters of guardianship issue.
(4) On making a finding under paragraph (3) of subdivision (c), identify adoption or tribal customary adoption as
the permanent placement goal and order that efforts be made to locate an appropriate adoptive family for the child
within a period not to exceed 180 days.
(5) Appoint a nonrelative legal guardian for the child and order that letters of guardianship issue.
(6) Order that the child be permanently placed with a fit and willing relative, subject to the periodic review of the
juvenile court under Section 366.3.
(7) Order that the child remain in foster care, subject to the conditions described in paragraph (4) of subdivision (c)
and the periodic review of the juvenile court under Section 366.3.
In choosing among the alternatives in this subdivision, the court shall proceed pursuant to subdivision (c).
(c) (1) If the court determines, based on the assessment provided as ordered under subdivision (i) of Section
366.21, subdivision (b) of Section 366.22, or subdivision (b) of Section 366.25, and any other relevant evidence,

by a clear and convincing standard, that it is likely the child will be adopted, the court shall terminate parental
rights and order the child placed for adoption. The fact that the child is not yet placed in a preadoptive home nor
with a relative or foster family who is prepared to adopt the child, shall not constitute a basis for the court to
conclude that it is not likely the child will be adopted. A finding under subdivision (b) or paragraph (1) of
subdivision (e) of Section 361.5 that reunification services shall not be offered, under subdivision (e) of Section
366.21 that the whereabouts of a parent have been unknown for six months or that the parent has failed to visit or
contact the child for six months, or that the parent has been convicted of a felony indicating parental unfitness, or,
under Section 366.21 or 366.22, that the court has continued to remove the child from the custody of the parent or
guardian and has terminated reunification services, shall constitute a sufficient basis for termination of parental
rights. Under these circumstances, the court shall terminate parental rights unless either of the following applies:
(A) The child is living with a relative who is unable or unwilling to adopt the child because of circumstances that do
not include an unwillingness to accept legal or financial responsibility for the child, but who is willing and capable of
providing the child with a stable and permanent environment through legal guardianship, and the removal of the
child from the custody of his or her relative would be detrimental to the emotional well-being of the child. For
purposes of an Indian child, “relative” shall include an “extended family member,” as defined in the federal Indian
Child Welfare Act of 1978 (25 U.S.C. Sec. 1903(2)).
(B) The court finds a compelling reason for determining that termination would be detrimental to the child due to
one or more of the following circumstances:
(i) The parents have maintained regular visitation and contact with the child and the child would benefit from
continuing the relationship.
(ii) A child 12 years of age or older objects to termination of parental rights.
(iii) The child is placed in a residential treatment facility, adoption is unlikely or undesirable, and continuation of
parental rights will not prevent finding the child a permanent family placement if the parents cannot resume
custody when residential care is no longer needed.
(iv) The child is living with a foster parent or Indian custodian who is unable or unwilling to adopt the child because
of exceptional circumstances, that do not include an unwillingness to accept legal or financial responsibility for the
child, but who is willing and capable of providing the child with a stable and permanent environment and the
removal of the child from the physical custody of his or her foster parent or Indian custodian would be detrimental
to the emotional well-being of the child. This clause does not apply to any child who is either (I) under six years of
age or (II) a member of a sibling group where at least one child is under six years of age and the siblings are, or
should be, permanently placed together.
(v) There would be substantial interference with a child’s sibling relationship, taking into consideration the nature
and extent of the relationship, including, but not limited to, whether the child was raised with a sibling in the same
home, whether the child shared significant common experiences or has existing close and strong bonds with a
sibling, and whether ongoing contact is in the child’s best interest, including the child’s long-term emotional
interest, as compared to the benefit of legal permanence through adoption.
(vi) The child is an Indian child and there is a compelling reason for determining that termination of parental rights
would not be in the best interest of the child, including, but not limited to:
(I) Termination of parental rights would substantially interfere with the child’s connection to his or her tribal
community or the child’s tribal membership rights.
(II) The child’s tribe has identified guardianship, foster care with a fit and willing relative, tribal customary
adoption, or another planned permanent living arrangement for the child.
(III) The child is a nonminor dependent, and the nonminor and the nonminor’s tribe have identified tribal
customary adoption for the nonminor.
(C) For purposes of subparagraph (B), in the case of tribal customary adoptions, Section 366.24 shall apply.
(D) If the court finds that termination of parental rights would be detrimental to the child pursuant to clause (i),
(ii), (iii), (iv), (v), or (vi), it shall state its reasons in writing or on the record.
(2) The court shall not terminate parental rights if:
(A) At each hearing at which the court was required to consider reasonable efforts or services, the court has found
that reasonable efforts were not made or that reasonable services were not offered or provided.
(B) In the case of an Indian child:
(i) At the hearing terminating parental rights, the court has found that active efforts were not made as required in
Section 361.7.

(ii) The court does not make a determination at the hearing terminating parental rights, supported by evidence
beyond a reasonable doubt, including testimony of one or more “qualified expert witnesses” as defined in Section
224.6, that the continued custody of the child by the parent is likely to result in serious emotional or physical
damage to the child.
(iii) The court has ordered tribal customary adoption pursuant to Section 366.24.
(3) If the court finds that termination of parental rights would not be detrimental to the child pursuant to paragraph
(1) and that the child has a probability for adoption but is difficult to place for adoption and there is no identified or
available prospective adoptive parent, the court may identify adoption as the permanent placement goal and,
without terminating parental rights, order that efforts be made to locate an appropriate adoptive family for the
child, within the state or out of the state, within a period not to exceed 180 days. During this 180-day period, the
public agency responsible for seeking adoptive parents for each child shall, to the extent possible, ask each child
who is 10 years of age or older to identify any individuals, other than the child’s siblings, who are important to the
child, in order to identify potential adoptive parents. The public agency may ask any other child to provide that
information, as appropriate. During the 180-day period, the public agency shall, to the extent possible, contact
other private and public adoption agencies regarding the availability of the child for adoption. During the 180-day
period, the public agency shall conduct the search for adoptive parents in the same manner as prescribed for
children in Sections 8708 and 8709 of the Family Code. At the expiration of this period, another hearing shall be
held and the court shall proceed pursuant to paragraph (1), (2), (3), (5), or (6) of subdivision (b). For purposes of
this section, a child may only be found to be difficult to place for adoption if there is no identified or available
prospective adoptive parent for the child because of the child’s membership in a sibling group, or the presence of a
diagnosed medical, physical, or mental handicap, or the child is seven years of age or older.
(4) (A) If the court finds that adoption of the child or termination of parental rights is not in the best interest of the
child, because one of the conditions in clause (i), (ii), (iii), (iv), (v), or (vi) of subparagraph (B) of paragraph (1) or
in paragraph (2) applies, the court shall order that the present caretakers or other appropriate persons shall
become legal guardians of the child, or, in the case of an Indian child, consider a tribal customary adoption
pursuant to Section 366.24. Legal guardianship shall be considered before continuing the child in foster care under
any other permanent plan, if it is in the best interests of the child and if a suitable guardian can be found. If the
child continues in foster care, the court shall make factual findings identifying any barriers to achieving adoption,
tribal customary adoption in the case of an Indian child, legal guardianship, or placement with a fit and willing
relative as of the date of the hearing. A child who is 10 years of age or older, shall be asked to identify any
individuals, other than the child’s siblings, who are important to the child, in order to identify potential guardians or,
in the case of an Indian child, prospective tribal customary adoptive parents. The agency may ask any other child
to provide that information, as appropriate.
(B) (i) If the child is living with an approved relative who is willing and capable of providing a stable and permanent
environment, but not willing to become a legal guardian as of the hearing date, the court shall order a permanent
plan of placement with a fit and willing relative, and the child shall not be removed from the home if the court finds
the removal would be seriously detrimental to the emotional well-being of the child because the child has
substantial psychological ties to the relative caretaker.
(ii) If the child is living with a nonrelative caregiver who is willing and capable of providing a stable and permanent
environment, but not willing to become a legal guardian as of the hearing date, the court shall order that the child
remain in foster care with a permanent plan of return home, adoption, legal guardianship, or placement with a fit
and willing relative, as appropriate. If the child is 16 years of age or older, or a nonminor dependent, and no other
permanent plan is appropriate at the time of the hearing, the court may order another planned permanent living
arrangement, as described in paragraph (2) of subdivision (i) of Section 16501. Regardless of the age of the child,
the child shall not be removed from the home if the court finds the removal would be seriously detrimental to the
emotional well-being of the child because the child has substantial psychological ties to the caregiver.
(iii) If the child is living in a group home or, on or after January 1, 2017, a short-term residential therapeutic
program, the court shall order that the child remain in foster care with a permanent plan of return home, adoption,
tribal customary adoption in the case of an Indian child, legal guardianship, or placement with a fit and willing
relative, as appropriate. If the child is 16 years of age or older, or a nonminor dependent, and no other permanent
plan is appropriate at the time of the hearing, the court may order another planned permanent living arrangement,
as described in paragraph (2) of subdivision (i) of Section 16501.
(C) The court shall also make an order for visitation with the parents or guardians unless the court finds by a
preponderance of the evidence that the visitation would be detrimental to the physical or emotional well-being of
the child.
(5) If the court finds that the child should not be placed for adoption, that legal guardianship shall not be
established, that placement with a fit and willing relative is not appropriate as of the hearing date, and that there

are no suitable foster parents except certified family homes or resource families of a foster family agency available
to provide the child with a stable and permanent environment, the court may order the care, custody, and control
of the child transferred from the county welfare department to a licensed foster family agency. The court shall
consider the written recommendation of the county welfare director regarding the suitability of the transfer. The
transfer shall be subject to further court orders.
The licensed foster family agency shall place the child in a suitable licensed or certified family home that has been
certified by the agency as meeting licensing standards or with a resource family approved by the agency. The
licensed foster family agency shall be responsible for supporting the child and providing appropriate services to the
child, including those services ordered by the court. Responsibility for the support of the child shall not, in and of
itself, create liability on the part of the foster family agency to third persons injured by the child. Those children
whose care, custody, and control are transferred to a foster family agency shall not be eligible for foster care
maintenance payments or child welfare services, except for emergency response services pursuant to Section
16504.
(d) The proceeding for the appointment of a guardian for a child who is a dependent of the juvenile court shall be
conducted in the juvenile court. If the court finds pursuant to this section that legal guardianship is the appropriate
permanent plan, it shall appoint the legal guardian and issue letters of guardianship. The assessment prepared
pursuant to subdivision (g) of Section 361.5, subdivision (i) of Section 366.21, subdivision (c) of Section 366.22,
and subdivision (b) of Section 366.25 shall be read and considered by the court prior to the appointment, and this
shall be reflected in the minutes of the court. The assessment may also include the naming of a prospective
successor guardian, if one is identified. In the event of the incapacity or death of the appointed guardian, the
named successor guardian may be assessed and appointed pursuant to this section. The person preparing the
assessment may be called and examined by any party to the proceeding.
(e) (1) The proceeding for the adoption of a child who is a dependent of the juvenile court shall be conducted in the
juvenile court if the court finds pursuant to this section that adoption is the appropriate permanent plan and the
petition for adoption is filed in the juvenile court. Upon the filing of a petition for adoption, the juvenile court shall
order that an adoption hearing be set. The court shall proceed with the adoption after the appellate rights of the
natural parents have been exhausted. The full report required by Section 8715 of the Family Code shall be read and
considered by the court prior to the adoption and this shall be reflected in the minutes of the court. The person
preparing the report may be called and examined by any party to the proceeding. It is the intent of the Legislature,
pursuant to this subdivision, to give potential adoptive parents the option of filing in the juvenile court the petition
for the adoption of a child who is a dependent of the juvenile court. Nothing in this section is intended to prevent
the filing of a petition for adoption in any other court as permitted by law, instead of in the juvenile court.
(2) In the case of an Indian child, if the Indian child’s tribe has elected a permanent plan of tribal customary
adoption, the court, upon receiving the tribal customary adoption order will afford the tribal customary adoption
order full faith and credit to the same extent that the court would afford full faith and credit to the public acts,
records, judicial proceedings, and judgments of any other entity. Upon a determination that the tribal customary
adoption order may be afforded full faith and credit, consistent with Section 224.5, the court shall thereafter order
a hearing to finalize the adoption be set upon the filing of the adoption petition. The prospective tribal customary
adoptive parents and the child who is the subject of the tribal customary adoption petition shall appear before the
court for the finalization hearing. The court shall thereafter issue an order of adoption pursuant to Section 366.24.
(3) If a child who is the subject of a finalized tribal customary adoption shows evidence of a developmental
disability or mental illness as a result of conditions existing before the tribal customary adoption to the extent that
the child cannot be relinquished to a licensed adoption agency on the grounds that the child is considered
unadoptable, and of which condition the tribal customary adoptive parent or parents had no knowledge or notice
before the entry of the tribal customary adoption order, a petition setting forth those facts may be filed by the tribal
customary adoptive parent or parents with the juvenile court that granted the tribal customary adoption petition. If
these facts are proved to the satisfaction of the juvenile court, it may make an order setting aside the tribal
customary adoption order. The set-aside petition shall be filed within five years of the issuance of the tribal
customary adoption order. The court clerk shall immediately notify the child’s tribe and the department in
Sacramento of the petition within 60 days after the notice of filing of the petition. The department shall file a full
report with the court and shall appear before the court for the purpose of representing the child. Whenever a final
decree of tribal customary adoption has been vacated or set aside, the child shall be returned to the custody of the
county in which the proceeding for tribal customary adoption was finalized. The biological parent or parents of the
child may petition for return of custody. The disposition of the child after the court has entered an order to set aside
a tribal customary adoption shall include consultation with the child’s tribe.
(f) At the beginning of any proceeding pursuant to this section, if the child or the parents are not being represented
by previously retained or appointed counsel, the court shall proceed as follows:

(1) In accordance with subdivision (c) of Section 317, if a child before the court is without counsel, the court shall
appoint counsel unless the court finds that the child would not benefit from the appointment of counsel. The court
shall state on the record its reasons for that finding.
(2) If a parent appears without counsel and is unable to afford counsel, the court shall appoint counsel for the
parent, unless this representation is knowingly and intelligently waived. The same counsel shall not be appointed to
represent both the child and his or her parent. The public defender or private counsel may be appointed as counsel
for the parent.
(3) Private counsel appointed under this section shall receive a reasonable sum for compensation and expenses,
the amount of which shall be determined by the court. The amount shall be paid by the real parties in interest,
other than the child, in any proportions the court deems just. However, if the court finds that any of the real parties
in interest are unable to afford counsel, the amount shall be paid out of the general fund of the county.
(g) The court may continue the proceeding for a period of time not to exceed 30 days as necessary to appoint
counsel, and to enable counsel to become acquainted with the case.
(h) (1) At all proceedings under this section, the court shall consider the wishes of the child and shall act in the
best interests of the child.
(2) In accordance with Section 349, the child shall be present in court if the child or the child’s counsel so requests
or the court so orders. If the child is 10 years of age or older and is not present at a hearing held pursuant to this
section, the court shall determine whether the minor was properly notified of his or her right to attend the hearing
and inquire as to the reason why the child is not present.
(3) (A) The testimony of the child may be taken in chambers and outside the presence of the child’s parent or
parents, if the child’s parent or parents are represented by counsel, the counsel is present, and any of the following
circumstances exist:
(i) The court determines that testimony in chambers is necessary to ensure truthful testimony.
(ii) The child is likely to be intimidated by a formal courtroom setting.
(iii) The child is afraid to testify in front of his or her parent or parents.
(B) After testimony in chambers, the parent or parents of the child may elect to have the court reporter read back
the testimony or have the testimony summarized by counsel for the parent or parents.
(C) The testimony of a child also may be taken in chambers and outside the presence of the guardian or guardians
of a child under the circumstances specified in this subdivision.
(i) (1) Any order of the court permanently terminating parental rights under this section shall be conclusive and
binding upon the child, upon the parent or parents and, upon all other persons who have been served with citation
by publication or otherwise as provided in this chapter. After making the order, the juvenile court shall have no
power to set aside, change, or modify it, except as provided in paragraph (2), but nothing in this section shall be
construed to limit the right to appeal the order.
(2) A tribal customary adoption order evidencing that the Indian child has been the subject of a tribal customary
adoption shall be afforded full faith and credit and shall have the same force and effect as an order of adoption
authorized by this section. The rights and obligations of the parties as to the matters determined by the Indian
child’s tribe shall be binding on all parties. A court shall not order compliance with the order absent a finding that
the party seeking the enforcement participated, or attempted to participate, in good faith, in family mediation
services of the court or dispute resolution through the tribe regarding the conflict, prior to the filing of the
enforcement action.
(3) A child who has not been adopted after the passage of at least three years from the date the court terminated
parental rights and for whom the court has determined that adoption is no longer the permanent plan may petition
the juvenile court to reinstate parental rights pursuant to the procedure prescribed by Section 388. The child may
file the petition prior to the expiration of this three-year period if the State Department of Social Services, county
adoption agency, or licensed adoption agency that is responsible for custody and supervision of the child as
described in subdivision (j) and the child stipulate that the child is no longer likely to be adopted. A child over 12
years of age shall sign the petition in the absence of a showing of good cause as to why the child could not do so. If
it appears that the best interests of the child may be promoted by reinstatement of parental rights, the court shall
order that a hearing be held and shall give prior notice, or cause prior notice to be given, to the social worker or
probation officer and to the child’s attorney of record, or, if there is no attorney of record for the child, to the child,
and the child’s tribe, if applicable, by means prescribed by subdivision (c) of Section 297. The court shall order the
child or the social worker or probation officer to give prior notice of the hearing to the child’s former parent or
parents whose parental rights were terminated in the manner prescribed by subdivision (f) of Section 294 where
the recommendation is adoption. The juvenile court shall grant the petition if it finds by clear and convincing

evidence that the child is no longer likely to be adopted and that reinstatement of parental rights is in the child’s
best interest. If the court reinstates parental rights over a child who is under 12 years of age and for whom the new
permanent plan will not be reunification with a parent or legal guardian, the court shall specify the factual basis for
its findings that it is in the best interest of the child to reinstate parental rights. This subdivision is intended to be
retroactive and applies to any child who is under the jurisdiction of the juvenile court at the time of the hearing
regardless of the date parental rights were terminated.
(j) If the court, by order or judgment, declares the child free from the custody and control of both parents, or one
parent if the other does not have custody and control, or declares the child eligible for tribal customary adoption,
the court shall at the same time order the child referred to the State Department of Social Services, county
adoption agency, or licensed adoption agency for adoptive placement by the agency. However, except in the case of
a tribal customary adoption where there is no termination of parental rights, a petition for adoption may not be
granted until the appellate rights of the natural parents have been exhausted. The State Department of Social
Services, county adoption agency, or licensed adoption agency shall be responsible for the custody and supervision
of the child and shall be entitled to the exclusive care and control of the child at all times until a petition for
adoption or tribal customary adoption is granted, except as specified in subdivision (n). With the consent of the
agency, the court may appoint a guardian of the child, who shall serve until the child is adopted.
(k) (1) Notwithstanding any other law, the application of any person who, as a relative caretaker or foster parent,
has cared for a dependent child for whom the court has approved a permanent plan for adoption, or who has been
freed for adoption, shall be given preference with respect to that child over all other applications for adoptive
placement if the agency making the placement determines that the child has substantial emotional ties to the
relative caretaker or foster parent and removal from the relative caretaker or foster parent would be seriously
detrimental to the child’s emotional well-being.
(2) As used in this subdivision, “preference” means that the application shall be processed and, if satisfactory, the
family study shall be completed before the processing of the application of any other person for the adoptive
placement of the child.
(l) (1) An order by the court that a hearing pursuant to this section be held is not appealable at any time unless all
of the following apply:
(A) A petition for extraordinary writ review was filed in a timely manner.
(B) The petition substantively addressed the specific issues to be challenged and supported that challenge by an
adequate record.
(C) The petition for extraordinary writ review was summarily denied or otherwise not decided on the merits.
(2) Failure to file a petition for extraordinary writ review within the period specified by rule, to substantively
address the specific issues challenged, or to support that challenge by an adequate record shall preclude
subsequent review by appeal of the findings and orders made pursuant to this section.
(3) The Judicial Council shall adopt rules of court, effective January 1, 1995, to ensure all of the following:
(A) A trial court, after issuance of an order directing a hearing pursuant to this section be held, shall advise all
parties of the requirement of filing a petition for extraordinary writ review as set forth in this subdivision in order to
preserve any right to appeal in these issues.
(i) If a party is present at the time of the making of the order, the notice shall be made orally to the party.
(ii) If the party is not present at the time of making the order, the notice shall be made by the clerk of the court by
first-class mail to the last known address of a party or by electronic service pursuant to Section 212.5. If the notice
is for a hearing at which the social worker will recommend the termination of parental rights, the notice may be
electronically served pursuant to Section 212.5, but only in addition to service of the notice by first-class mail.
(B) The prompt transmittal of the records from the trial court to the appellate court.
(C) That adequate time requirements for counsel and court personnel exist to implement the objective of this
subdivision.
(D) That the parent or guardian, or their trial counsel or other counsel, is charged with the responsibility of filing a
petition for extraordinary writ relief pursuant to this subdivision.
(4) The intent of this subdivision is to do both of the following:
(A) Make every reasonable attempt to achieve a substantive and meritorious review by the appellate court within
the time specified in Sections 366.21, 366.22, and 366.25 for holding a hearing pursuant to this section.
(B) Encourage the appellate court to determine all writ petitions filed pursuant to this subdivision on their merits.

(5) This subdivision shall only apply to cases in which an order to set a hearing pursuant to this section is issued on
or after January 1, 1995.
(m) Except for subdivision (j), this section shall also apply to minors adjudged wards pursuant to Section 727.31.
(n) (1) Notwithstanding Section 8704 of the Family Code or any other law, the court, at a hearing held pursuant to
this section or anytime thereafter, may designate a current caretaker as a prospective adoptive parent if the child
has lived with the caretaker for at least six months, the caretaker currently expresses a commitment to adopt the
child, and the caretaker has taken at least one step to facilitate the adoption process. In determining whether to
make that designation, the court may take into consideration whether the caretaker is listed in the preliminary
assessment prepared by the county department in accordance with subdivision (i) of Section 366.21 as an
appropriate person to be considered as an adoptive parent for the child and the recommendation of the State
Department of Social Services, county adoption agency, or licensed adoption agency.
(2) For purposes of this subdivision, steps to facilitate the adoption process include, but are not limited to, the
following:
(A) Applying for an adoption homestudy.
(B) Cooperating with an adoption homestudy.
(C) Being designated by the court or the adoption agency as the adoptive family.
(D) Requesting de facto parent status.
(E) Signing an adoptive placement agreement.
(F) Engaging in discussions regarding a postadoption contact agreement.
(G) Working to overcome any impediments that have been identified by the State Department of Social Services,
county adoption agency, or licensed adoption agency.
(H) Attending classes required of prospective adoptive parents.
(3) Prior to a change in placement and as soon as possible after a decision is made to remove a child from the
home of a designated prospective adoptive parent, the agency shall notify the court, the designated prospective
adoptive parent or the current caretaker, if that caretaker would have met the threshold criteria to be designated as
a prospective adoptive parent pursuant to paragraph (1) on the date of service of this notice, the child’s attorney,
the child, if the child is 10 years of age or older, and, where it is known or there is reason to know that the child is
an Indian child, as defined by Section 224.1, the child’s tribe, of the proposal in the manner described in Section
16010.6.
(A) Within five court days or seven calendar days, whichever is longer, of the date of notification, the child, the
child’s attorney, the child’s tribe, or the designated prospective adoptive parent may file a petition with the court
objecting to the proposal to remove the child, or the court, upon its own motion, may set a hearing regarding the
proposal. The court may, for good cause, extend the filing period. A caretaker who would have met the threshold
criteria to be designated as a prospective adoptive parent pursuant to paragraph (1) on the date of service of the
notice of proposed removal of the child may file, together with the petition under this subparagraph, a petition for
an order designating the caretaker as a prospective adoptive parent for purposes of this subdivision.
(B) A hearing ordered pursuant to this paragraph shall be held as soon as possible and not later than five court
days after the petition is filed with the court or the court sets a hearing upon its own motion, unless the court for
good cause is unable to set the matter for hearing five court days after the petition is filed, in which case the court
shall set the matter for hearing as soon as possible. At the hearing, the court shall determine whether the caretaker
has met the threshold criteria to be designated as a prospective adoptive parent pursuant to paragraph (1), and
whether the proposed removal of the child from the home of the designated prospective adoptive parent is in the
child’s best interest, and the child may not be removed from the home of the designated prospective adoptive
parent unless the court finds that removal is in the child’s best interest. If the court determines that the caretaker
did not meet the threshold criteria to be designated as a prospective adoptive parent on the date of service of the
notice of proposed removal of the child, the petition objecting to the proposed removal filed by the caretaker shall
be dismissed. If the caretaker was designated as a prospective adoptive parent prior to this hearing, the court shall
inquire into any progress made by the caretaker towards the adoption of the child since the caretaker was
designated as a prospective adoptive parent.
(C) A determination by the court that the caretaker is a designated prospective adoptive parent pursuant to
paragraph (1) or subparagraph (B) does not make the caretaker a party to the dependency proceeding nor does it
confer on the caretaker any standing to object to any other action of the department, county adoption agency, or
licensed adoption agency, unless the caretaker has been declared a de facto parent by the court prior to the notice
of removal served pursuant to paragraph (3).

(D) If a petition objecting to the proposal to remove the child is not filed, and the court, upon its own motion, does
not set a hearing, the child may be removed from the home of the designated prospective adoptive parent without
a hearing.
(4) Notwithstanding paragraph (3), if the State Department of Social Services, county adoption agency, or licensed
adoption agency determines that the child must be removed from the home of the caretaker who is or may be a
designated prospective adoptive parent immediately, due to a risk of physical or emotional harm, the agency may
remove the child from that home and is not required to provide notice prior to the removal. However, as soon as
possible and not longer than two court days after the removal, the agency shall notify the court, the caretaker who
is or may be a designated prospective adoptive parent, the child’s attorney, and the child, if the child is 10 years of
age or older, of the removal. Within five court days or seven calendar days, whichever is longer, of the date of
notification of the removal, the child, the child’s attorney, or the caretaker who is or may be a designated
prospective adoptive parent may petition for, or the court on its own motion may set, a noticed hearing pursuant to
paragraph (3). The court may, for good cause, extend the filing period.
(5) Except as provided in subdivision (b) of Section 366.28, an order by the court issued after a hearing pursuant
to this subdivision shall not be appealable.
(6) Nothing in this section shall preclude a county child protective services agency from fully investigating and
responding to alleged abuse or neglect of a child pursuant to Section 11165.5 of the Penal Code.
(7) When an Indian child is removed from the home of a prospective adoptive parent pursuant to this section, the
placement preferences contained in Section 361.31 and the federal Indian Child Welfare Act of 1978 (25 U.S.C.
Sec. 1901 et seq.) apply to the subsequent placement of the child.
(8) The Judicial Council shall prepare forms to facilitate the filing of the petitions described in this subdivision,
which shall become effective on January 1, 2006.
(Amended by Stats. 2018, Ch. 833, Sec. 32. (AB 3176) Effective January 1, 2019.)

